<html>
<title> - PROMOTING SECURITY IN WIRELESS TECHNOLOGY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



                PROMOTING SECURITY IN WIRELESS TECHNOLOGY

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 13, 2017

                               __________

                           Serial No. 115-38
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-576 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4027302f002335333428252c306e232f2d6e">[email&#160;protected]</a>                         


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                   Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

                                 7_____

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     1
    Prepared statement...........................................     3
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     3
Hon. Leonard Lance, a Representative in Congress from the State 
  of New Jersey, opening statement...............................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     7

                               Witnesses

Bill Wright, Director, Government Affairs, and Senior Policy 
  Counsel, Symantec..............................................     9
    Prepared statement...........................................    11
    Answers to submitted questions...............................    68
Amit Yoran, Chairman and Chief Executive Officer, Tenable........    18
    Prepared statement...........................................    20
    Answers to submitted questions...............................    71
Charles Clancy, Ph.D., Director, Hume Center for National 
  Security and Technology, and Professor of Electrical and 
  Computer Engineering, Virgina Tech.............................    28
    Prepared statement...........................................    30
    Answers to submitted questions...............................    74
Kiersten E. Todt, Former Executive Director, Commission on 
  Enhancing National Cybersecurity; Managing Partner, Liberty 
  Group Ventures, LLC; and Resident Scholar, University of 
  Pittsburgh Institute for Cyber Law, Policy, and Security.......    34
    Prepared statement...........................................    36
    Answers to submitted questions...............................    77

 
               PROMOTING SECURITY IN WIRELESS TECHNOLOGY

                              ----------                              


                         TUESDAY, JUNE 13, 2017

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2322, Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Members present: Representatives Blackburn, Lance, Shimkus, 
Olson, Kinzinger, Bilirakis, Johnson, Flores, Brooks, Collins, 
Cramer, Walters, Costello, Doyle, Welch, Clarke, Loebsack, 
Ruiz, Dingell, Rush, Eshoo, Butterfield, Matsui, McNerney, and 
Pallone (ex officio).
    Staff present: Kelly Collins, Staff Assistant; Blair Ellis, 
Press Secretary/Digital Coordinator; Chuck Flint, Policy 
Coordinator, Communications and Technology; Gene Fullano, 
Detailee, Communications and Technology; Jay Gulshen, 
Legislative Clerk, Health; Kelsey Guyselman, Counsel, 
Communications and Technology; Lauren McCarty, Counsel, 
Communications and Technology; Paul Nagle, Chief Counsel, 
Digital Commerce and Consumer Protection; John Ohly, 
Professional Staff, Oversight and Investigations; Dan 
Schneider, Press Secretary; Jeff Carroll, Minority Staff 
Director; Alex Debianchi, Minority Telecom Fellow; David 
Goldman, Minority Chief Counsel, Communications and Technology; 
Jerry Leverich, Minority Counsel; Lori Maarbjerg, Minority FCC 
Detailee; Jessica Martinez, Minority Outreach and Member 
Services Coordinator; and Dan Miller, Minority Policy Analyst.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Go ahead and call our subcommittee to 
order. And I will begin by thanking Mr. Doyle's Penguins for a 
very fine hockey series against my Nashville Preds. I told him 
I thought about bringing him a little bit of catfish today, but 
we were sorry we didn't win but we think it was just a 
fantastic series and we congratulate.
    Mr. Doyle. Well, thank you.
    Mrs. Blackburn. Yes. And now I recognize myself for 5 
minutes for an opening statement. And I welcome each of you to 
the subcommittee's hearing titled, Promoting Security in 
Wireless Technology, and thank you to our witnesses for 
appearing and for offering your testimony on this important 
issue and thank you for submitting that testimony on time. We 
appreciate that.
    Mobile connectivity has become essential to our daily lives 
as a result of technology and consumer demand. Unfortunately, 
increasing reliance on wireless devices and networks has 
provided more avenues for cybercriminals to compromise our 
security and harm consumers. According to the 2017 Hiscox Cyber 
Readiness Report, cybercrimes cost the global economy 
approximately 450 billion, and over 100 million Americans had 
their medical records stolen in 2016. I think that is such an 
important stat. 100 million Americans had their medical records 
stolen in 2016.
    Threats to mobile devices and networks can run the gamut 
from the use of ransomware and phishing schemes to packet 
sniffing and attacks on encryption protocols used to protect 
information sent over WiFi. These incidents have been occurring 
with alarming frequency on scales large and small. The Harvard 
Business Review wrote last September 22nd that--and I am 
quoting--``Mobile devices are one of the weakest links in 
corporate security,'' and that ``if mobile security isn't a 
problem for your company yet, it will be.''
    Hackers are smart. They are adapting. McAfee's 2016 Mobile 
Threat Report notes mobile devices are quickly becoming the 
cybercriminal's target of choice because of the abundance of 
sensitive information individuals store on them. This is 
corroborated by a Newsweek report from March that stated mobile 
ransomware attacks had already grown over 250 percent in 2017. 
The sophistication and frequency of cyber attacks against 
mobile devices continues to escalate and we must meet this 
challenge head-on.
    Our hearing will also examine threats to wireless networks. 
As the Majority Memorandum notes, mobile devices generate 
numerous air interfaces to transmit data, with each interface 
creating unique security vulnerabilities and attack methods. 
Threats include packet sniffing, rogue access points, jamming, 
and locating flawed encryption algorithms. These attacks can be 
initiated by hackers to obtain financial information, user 
passwords, and block legitimate network traffic. A recent 
example of this was the DDOS attack against Dyn which disrupted 
websites such as Twitter, Netflix, and Etsy last November. We 
all remember that one.
    I have often said that cyberspace is the battlefield of the 
21st century. It is time to act. Hardworking taxpayers are 
demanding leadership from Washington in the cyber arena and it 
is our duty to provide it. Enhanced defensive capabilities 
should be developed by promoting greater collaboration between 
public and private entities.
    CTIA has shown leadership through its Cybersecurity Working 
Group. Their efforts have brought Federal agencies such as the 
FCC and DHS together with the private sector to develop 
solutions to the dilemma. Whether it is encryption, the use of 
authentication standards, updating operating systems, or 
rigorous implementation of antivirus software, we must have an 
all-of-the-above approach when it comes to forging defensive 
strategies against cybercriminals.
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Welcome to the Communications and Technology Subcommittee's 
hearing titled ``Promoting Security in Wireless Technology.'' 
Thank you to the witnesses for appearing to offer your 
testimony on this important issue. Mobile connectivity has 
become essential to our daily lives as a result of advances in 
technology and consumer demand. Unfortunately, increasing 
reliance on wireless devices and networks has provided more 
avenues for cyber criminals to compromise our security and harm 
consumers.
    According to the 2017 Hiscox Cyber Readiness Report, 
cybercrimes cost the global economy approximately $450 billion 
and over 100 million Americans had their medical records stolen 
in 2016. Threats to mobile devices and networks can run the 
gamut from the use of ransomware and phishing schemes to packet 
sniffing and attacks on encryption protocols used to protect 
information sent over wi-fi. These incidents have been 
occurring with alarming frequency on scales large and small. 
The Harvard Business Review wrote last September 22nd that 
``mobile devices are one of the weakest links in corporate 
security'' and that ``if mobile security isn't a problem for 
your company yet, it will be''.
    Hackers are smart and they are adapting. McAffee's 2016 
Mobile Threat Report notes mobile devices are quickly becoming 
the cybercriminals target of choice because of the abundance of 
sensitive information individuals store on them. This is 
corroborated by a Newsweek report from March that stated mobile 
ransomware attacks have already grown over 250 percent in 2017. 
The sophistication and frequency of cyberattacks against mobile 
devices continues to escalate and we must meet this challenge 
head on.
    Our hearing will also examine threats to wireless networks. 
As the Majority Memorandum notes, mobile devices generate 
numerous air interfaces to transmit data, with each interface 
creating unique security vulnerabilities and attack methods. 
Threats include packet sniffing, rogue access points, jamming, 
and locating flawed encryption algorithms. These attacks can be 
initiated by hackers to obtain financial information, user 
passwords, and block legitimate network traffic. A recent 
example of this was the DDOS attack against Dyn which disrupted 
websites such as Twitter, Netflix, and Etsy last November.
    I have often said that cyberspace is the battlefield of the 
21st century. We must act now. Hard-working taxpayers are 
demanding leadership from Washington in the cyber arena and it 
is our duty to provide it. Enhanced defensive capabilities 
should be developed by promoting greater collaboration between 
public and private entities. CTIA has shown leadership through 
its Cybersecurity Working Group. Their efforts have brought 
Federal agencies such as the FCC and DHS together with the 
private sector to develop solutions to the cybersecurity 
dilemma.
    Whether it is encryption, the use of authentication 
standards, updating operating systems, or rigorous 
implementation of antivirus software--we must have an ``all of 
the above'' approach when it comes to forging defensive 
strategies that will defeat and deter cyber criminals.
    Thank you and I look forward to the testimony of our 
witnesses.

    Mrs. Blackburn. I thank you all for being here, and at this 
time I yield 5 minutes to the ranking member, Mr. Doyle.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. I thank you, Madam Chair, for holding this 
hearing and for the witnesses for appearing today. Before I get 
started I just want to reiterate a momentous occasion in our 
city. The Pittsburgh Penguins have brought the Stanley Cup back 
to Pittsburgh for the second year in a row. We beat back broken 
bones and sideline starters and some ferocious play from the 
Nashville Predators. I know the Predators aren't squarely in 
the gentlelady from Tennessee's district, but I want to 
congratulate her and their team on a hard-fought series.
    Mr. McNerney. Will the gentleman yield to someone from the 
Golden State?
    Mr. Doyle. No. No, I will not. But I have time at the end. 
You know, in Pittsburgh we could throw Primanti Bros. 
sandwiches on the ice, but they taste so good we prefer to eat 
them. So anyways, go Pens and congratulations to the Predators.
    I also want to mark another milestone. As of today, there 
are just under five million comments in the FCC's proceeding to 
repeal net neutrality rules. With still months to go, we have 
already far eclipsed the record-breaking 3.7 million comments 
that were filed in 2015. The vast majority of these comments 
are overwhelmingly in support of the current rules and opposed 
to the Trump administration's effort.
    And I would once again urge the chairman to bring the 
Commission before this committee for oversight hearings so that 
Congress can do its job and provide much needed oversight and 
public scrutiny. I think it would be a dereliction of duty not 
to provide oversight of an agency whose actions risk upending 
the internet ecosystem, one of the primary drivers of our 
economy.
    Considering the number of oversight hearings held during 
the previous administration, I am sure my colleagues on the 
other side of the aisle appreciate this fact all too well and 
will see fit to schedule oversight hearings of the Commission 
as soon as possible.
    Now, on to the topic before us today, promoting online 
security. Security is an absolutely critical issue. It enables 
an environment where commerce, communication, and innovation 
can flourish. However, increasingly, organizations are facing 
mounting threats and greater challenges particularly as more 
sectors of our economy come to depend on the digital 
infrastructure.
    These challenges are being compounded by highly 
sophisticated online threats that are increasingly funded and 
supported by hostile nations. As the witnesses point out in 
their testimony, attacks we face today are highly sophisticated 
and increasingly destructive, from Crash Override to Mirai 
botnet, from the hacks of the DNC and the Russian meddling in 
the U.S. election to WannaCry ransomware, these issues are only 
escalating in their severity.
    My colleagues, Representatives Clarke, Engel, and McNerney 
have all introduced legislation in this committee to address 
the threats we face. I would encourage the chairman to hold 
legislative hearings on these bills. I would also add that we 
need to use every tool in our toolbox to address cyber threats 
we are facing.
    In repealing the FCC's privacy rules using the CRA, 
Congress also repealed data security protections contained in 
those rules. While these rules were not a panacea, they 
required reasonable steps to protect data and were a meaningful 
step towards addressing this issue.
    With that I would yield the remaining minute and 35 seconds 
of my time to any one of my colleagues that desires to use it. 
Mr. McNerney?
    Mr. McNerney. Well, I thank the ranking member. And I don't 
want to say too much more about the Golden State Warriors, so I 
will move on. But I want to thank the Chair for today's 
hearing.
    The security is important. Last October we witnessed a 
catastrophic attack that used the insecure Internet of Things 
devices to cripple the internet. A weak device security poses 
serious threats to our national security and to the economy. 
That is why I introduced the Securing IoT Act which would 
require that cybersecurity standards be established for IoT 
devices and that these devices be certified to meet those 
standards.
    I am also disappointed that my Republican colleagues have 
not shown any interest in this bill especially since 20 to 50 
billion connected devices are expected to be in use by the year 
2020. Meanwhile, my Republican colleagues passed the privacy 
CRA, which leaves consumers more vulnerable to cybersecurity 
attacks, and that is why I introduced MY DATA Act so that 
consumers can have strong, data security protections.
    I hope my colleagues can get behind these two important 
bills, and I yield back to the ranking member.
    Mr. Doyle. And Ms. Eshoo, would you like the remaining 
time?
    Ms. Eshoo. Well, you are nice, but there are 11 seconds 
left, so I will weave my comments in later on. Thank you very 
much. I appreciate it.
    Mr. Doyle. OK, thank you. I will yield back. Thank you.
    Ms. Eshoo. Thank you.
    Mrs. Blackburn. The gentleman yields back. Mr. Lance, you 
are recognized for 5 minutes.

 OPENING STATEMENT OF HON. LEONARD LANCE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Lance. Thank you, Chair Blackburn. And welcome to our 
distinguished panel, thank you for appearing before us today.
    Since the advent of the smart phone and network innovations 
such as 4G LTE, consumers have become increasingly less 
constrained by location when using the internet. Mobile 
technology has changed the way consumers interact, freeing them 
to conduct business, to shop, to have access to health and 
financial records, to study and participate in countless other 
activities almost anywhere in the country.
    As more and more technological innovations such as 5G and 
Internet of Things devices come to market, billions more 
devices will become connected and continue to revolutionize the 
way consumers and businesses behave. And we have just 
participated downstairs in a forum regarding the Internet of 
Things with many of the great companies in this country, 
including Qualcomm and Panasonic and Siemens and Honeywell and 
others.
    However, with increased ease of access and reliance on 
connected devices comes increased security risks as the Chair 
has already indicated. We have already seen bad actors take 
advantage of the flood of internet-connected devices in the 
DDOS botnet attacks last year, and an increase of phishing and 
malware attacks on mobile devices. Threats are constantly 
evolving and increasing in sophistication and scope.
    Cybersecurity needs to be a priority as we become more 
dependent on connected devices. A large part of this is 
educating consumers and businesses on how best to protect 
themselves and their devices on the internet such as 
recognizing an attempt to invade the internet and regularly to 
change passwords.
    There is also a responsibility for the Government and 
industry to work together in making sure that networks and 
consumers are protected without mandating innovation-stifling 
technology or security standards that will become obsolete 
quickly. And we have seen this across the last 20 years that 
technology outstrips what we do here in Washington.
    I thank our panel for your efforts in this important field 
and look forward to the testimony. And I apologize. I will be 
moving in and out. There are two subcommittees of importance 
today from the Energy and Commerce Committee. Certainly this is 
an incredibly important issue and I will certainly be here to 
the greatest extent possible.
    Welcome again to our distinguished panel, and I would yield 
2 minutes, 20 seconds to any of our colleagues who wish to be 
recognized.
    Mrs. Blackburn. Anyone seeking time for an opening 
statement? If not, the gentleman yields back.
    Mr. Lance. I yield back, Madam Chair.
    Mrs. Blackburn. Mr. Pallone, the ranking member of the full 
committee, you are recognized for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chairman.
    Cyber attacks are one of the most serious threats to our 
national security today. Every day, new information comes out 
about how the Russians and other foreign actors are hacking our 
institutions and our democracy. Just last week, former FBI 
Director Comey testified, and I am quoting, ``The Russians 
interfered in our election during the 2016 cycle. They did it 
with purpose. They did it with sophistication. They did it with 
overwhelming technical efforts. It was an active measures 
campaign driven from the top of that government. There is no 
fuzz on that.'' Unquote.
    This committee has primary jurisdiction over the 
communications networks that were used by the Russians to 
commit these attacks. We should be focused like a laser on how 
to stop them from happening again, but this committee has yet 
to hold a single hearing on these Russian hacks. Worse still, 
the only legislation House Republicans have pushed and 
supported within this subcommittee's jurisdiction actually 
makes us less safe, in my opinion.
    With no hearings or advance notice, the leadership of this 
committee led the charge to strip away Americans' privacy 
rights and throw out some of the only protections on the books 
to secure our data. These safeguards simply said that broadband 
providers needed to take reasonable measures to secure 
Americans' data. But despite the Russian hacks, congressional 
Republicans eliminated those protections under the absurd 
pretext that asking companies to act reasonably was Government 
overreach.
    This hearing today is another example of committee 
Republicans simply not taking these issues seriously. Democrats 
tried to invite another cybersecurity expert to testify here 
today who could have helped us better understand the threats to 
our country like the Russian hacks, but the majority made up 
arbitrary and partisan reasons, in my opinion, to effectively 
block us. This decision shortchanges our members' ability to 
hear from the experts in this area.
    These games have to stop because these issues are just too 
serious to keep playing politics with our national security. 
Now Democrats are trying to address these issues head on in a 
nonpartisan way. We have put forward three bills--from Mr. 
Engel, Mr. McNerney, and Ms. Clarke--to help fix some of these 
problems.
    These are good bills that were introduced more than 3 
months ago and every day that goes by with no action is another 
day that the American people are at risk. Republicans, as I 
said before, should stop playing political games with national 
security because the risks are too great.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you, Madam Chairman. Cyberattacks are one of the most 
serious threats to our national security today. Every day new 
information comes out about how the Russians and other foreign 
actors are hacking our institutions and our democracy. Just 
last week former FBI Director Comey testified, and I'm quoting: 
``The Russians interfered in our election during the 2016 
cycle. They did with purpose. They did it with sophistication. 
They did it with overwhelming technical efforts. It was an 
active measures campaign driven from the top of that 
government. There is no fuzz on that.''
    This committee has primary jurisdiction over the 
communications networks that were used by the Russians to 
commit these attacks. We should be focused like a laser on how 
to stop them from happening again, but this committee has yet 
to hold a single hearing on these Russian hacks.
    Worse still, the only legislation House Republicans have 
pushed and supported within this subcommittee's jurisdiction 
actually makes us less safe. With no hearings or advance 
notice, the leadership of this committee led the charge to 
strip away Americans' privacy rights and throw out some of the 
only protections on the books to secure our data.
    Those safeguards simply said that broadband providers 
needed to take ``reasonable measures'' to secure Americans' 
data. But despite the Russian hacks, Congressional Republicans 
eliminated those protections under the absurd pretext that 
asking companies to act reasonably was Government overreach.
    This hearing today is another example of committee 
Republicans simply not taking these issues seriously. Democrats 
tried to invite another cybersecurity expert to testify here 
today who could have helped us better understand the threats to 
our country, like the Russian hacks. But the majority made up 
arbitrary and partisan reasons to effectively block us. This 
decision shortchanges our members' ability to hear from the 
experts in this area. These games have to stop because these 
issues are just too serious to keep playing politics with our 
national security.
    Democrats are trying to address these issues head on in a 
nonpartisan way. We have put forward three bills--from Mr. 
Engel, Mr. McNerney, and Ms. Clarke--to help fix some of these 
problems.
    These are good bills that were introduced more than three 
months ago. Every day that goes by with no action is another 
day that the American people are at risk. Republicans must stop 
playing political games with national security. The risks are 
just too great.

    Mr. Pallone. And with that, I would like to yield the time 
that I have left to Ms. Clarke and Ms. Eshoo. I guess we will 
split it evenly. We will start, I yield to Ms. Clarke.
    Ms. Clarke. First, I would like to thank our ranking 
member, Mr. Pallone, for yielding his time to me and thank 
Ranking Member Doyle and Chairwoman Blackburn for holding this 
important hearing. And I welcome our witnesses today for their 
expert testimony, I look forward to hearing from today's 
panelists.
    Many of my constituents in the 9th congressional district 
of New York have voiced their concerns on cybersecurity and 
have asked that I and my colleagues what we can do to lessen 
their vulnerability to cyber attacks which is why I introduced 
the Cybersecurity Responsibility Act of 2017.
    The Cybersecurity Responsibility Act of 2017 calls on the 
Federal Communications Commission to take an active role in 
protecting communications networks by carefully arranging, 
organizing, and supervising cybersecurity risks to prevent 
cyber attacks. As technology continues to develop and grow, so 
must our rules and regulations on internet safety. It is our 
duty not only as Members of Congress but as members of the 
committee to protect Americans against cyber attacks by 
ensuring that there are sufficient rules in place. With that, 
Mr. Chairman, I yield back to you.
    Mr. Pallone. I yield the remaining of the time to Ms. 
Eshoo.
    Ms. Eshoo. I thank the ranking member, and I thank all the 
witnesses. Some of you have been here before, welcome back, and 
to those who haven't, welcome.
    It has been said but it needs to be restated, 
cybersecurity, I think, is really one of the most pressing 
national security issues, challenges for our country. Almost 
everything that we do here in Congress relative to 
cybersecurity is after there has been a breach, and I think 
that we need to really drill down on prevention.
    I have spoken to countless people in my Silicon Valley 
district. Almost to a person they tell me that we need to 
concentrate on prevention. Up to 90 percent of the breaches, 
both Government and private sector--and 95 percent of this is 
private sector, 5 percent is the Federal Government as 
important as it is--say that there are two pillars to this. One 
is cyber hygiene and the other is consistent security 
management, so I am shortly going to be introducing legislation 
that reflects that.
    I think that NIST can set the standards and I think that 
companies should have a set of good housekeeping seal of 
approval and that as important as it is to take steps after 
something has happened, I think that we need to start focusing 
on prevention.
    So we will talk more about it with our distinguished panel, 
but I want to thank the ranking member for giving me some time 
to make this brief statement. Thank you.
    Mrs. Blackburn. The gentlelady yields back. The gentleman 
yields back, and this concludes our opening statements. I will 
remind all Members that their opening statements will be made a 
part of the record.
    And we do thank our witnesses for being here with us today. 
We are going to give each of you the opportunity to make a 5-
minute opening statement.
    And our witnesses: Mr. Bill Wright who is the director of 
Government Affairs and Senior Policy Counsel, and we welcome 
you; Mr. Amit Yoran, who is the chairman and CEO of Tenable; 
Ms. Kiersten Todt, who is the managing partner at Liberty Group 
Ventures and a resident scholar at the University of 
Pittsburgh--I guess you are celebrating too--Institute for 
Cyber Law, Policy, and Security; and Mr. Charles Clancy, who is 
the director and professor at Hume Center for National Security 
and Technology at Virginia Tech.
    So we appreciate that you are each here. We will begin, Mr. 
Wright, with you. You are recognized for 5 minutes for your 
opening statement.

 STATEMENTS OF BILL WRIGHT, DIRECTOR, GOVERNMENT AFFAIRS, AND 
SENIOR POLICY COUNSEL, SYMANTEC; AMIT YORAN, CHAIRMAN AND CHIEF 
 EXECUTIVE OFFICER, TENABLE; CHARLES CLANCY, PH.D., DIRECTOR, 
HUME CENTER FOR NATIONAL SECURITY AND TECHNOLOGY, AND PROFESSOR 
  OF ELECTRICAL AND COMPUTER ENGINEERING, VIRGINIA TECH; AND, 
  KIERSTEN E. TODT, FORMER EXECUTIVE DIRECTOR, COMMISSION ON 
  ENHANCING NATIONAL CYBERSECURITY; MANAGING PARTNER, LIBERTY 
   GROUP VENTURES, LLC; AND RESIDENT SCHOLAR, UNIVERSITY OF 
    PITTSBURGH INSTITUTE FOR CYBER LAW, POLICY, AND SECURITY

                    STATEMENT OF BILL WRIGHT

    Mr. Wright. Chairman Blackburn, Ranking Member Doyle, 
members of the subcommittee thank you for the opportunity to 
testify today. The cyber threats that we face today and every 
day are growing both in numbers and in sophistication. As the 
chairman pointed out in her opening statement, cyberspace truly 
is the battlefield of the 21st century.
    And while global ransomware attacks and destructive malware 
attacks tend to steal the headlines, it is other threats--
threats to mobile, threats to wireless, threats to IoT--that 
are quickly gaining prominence. And no wonder, today more than 
half of the world's web traffic originates from mobile phones 
and nearly half of the people on the planet own a smart phone 
today.
    But I think calling it a phone doesn't quite do this 
justice. This isn't a phone. It is a powerful, connected, 
handheld computer and from time to time you can use it to call 
your wife. We need to start viewing these as computers and we 
need to protect them as computers. Our web searches, our 
banking, our personal health information is all being 
transmitted and stored on mobile devices. Our smart phones are 
becoming an extension of ourselves and our identity.
    We are also seeing a blurring of the lines between work-
issued devices and personal devices. Employees can and often 
expect to be able to work from anywhere. Workers can 
unwittingly introduce virus into an entire network system from 
a single download of a malicious app. IT security is no longer 
about just protecting the perimeter from attack because that 
perimeter now covers the entire planet.
    As we all rush and rush to connect more and more devices to 
the internet we will undoubtedly improve our lives in many, 
many ways, but we will also be greatly increasing the attack 
surface. Last year's Mirai botnet DDOS attack was a sobering 
wake-up call for how powerful IoT-based botnet could be. And it 
was also a chilling reminder for what could happen if those bot 
masters had trained their sights elsewhere, say on an 
industrial control system.
    Attackers are continuing to evolve their criminal tools and 
getting better at avoiding detection and obfuscating their 
actions. The incentives for criminals is very strong. 
Cybercrime is more lucrative than ever. There is very little 
risk in getting caught and the underground cybercrime 
marketplace is booming, allowing even an art history major to 
conduct highly sophisticated cyber attacks by renting crime as 
a service by the hour or buying ransomware tool kits or mobile 
banking trojans.
    Mobile device manufacturers, particularly Apple, have done 
a pretty good job at putting security into their products and 
keeping malicious apps out of their stores. Android also has 
made some great strides over the last year. However, the very 
attributes that make mobile phones so attractive to consumers 
also make them a very tempting target for cybercriminals 
because unlike your desktop computer, your mobile device is 
always active, always receiving and used for every aspect of 
your life.
    Increasingly, smart phones are used for authentication 
purposes in various online accounts. A hacker only needs to 
steal or access your mobile device to get past all the other 
defenses that have been set up on the network side.
    Unfortunately, the public's attitude towards securing their 
devices has not kept pace with the potential threat. More than 
a quarter of smart phone users do not even use the most basic 
security feature, the screen lock, let alone applying timely 
software updates.
    And the criminals are following their victims onto these 
new platforms. Over the last few years we have seen a dramatic 
rise in malicious activity related to mobile devices driven by 
cybercriminals using tried and true methods to monetize attacks 
such as premium text messages, click fraud, and ransomware. 
Last year, Symantec detected more than 18 million mobile 
threats, an increase in 105 percent from the prior year. This 
trend will only be exacerbated over the next few years when 
tens of billions of connected devices are added to the 
internet. Cybercriminals are only bound by their own 
imagination and if there is a way to steal valuable data and 
monetize it, they will find it.
    As this subcommittee knows, we face significant challenges 
in our efforts to secure wireless networks and mobile devices 
and while there remains much work to be done we have made some 
progress in some areas, for instance, how we share threat 
information and when we share threat information with our 
Government partners.
    At Symantec we are committed to improving online security 
across the globe, including wireless and mobile security, and 
will continue to work collaboratively with our customers, 
industry, and governments to do so. Thank you again for the 
opportunity to testify and happy to answer any questions.
    [The prepared statement of Mr. Wright follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. I thank you for the testimony.
    Mr. Yoran, you are recognized for 5 minutes.

                    STATEMENT OF AMIT YORAN

    Mr. Yoran. Chairman Blackburn, Ranking Member Doyle, and 
members of the subcommittee thank you for the opportunity to 
testify today in what promises to be the most exciting hearing 
of the day. I am chairman and CEO of Tenable, the world's most 
widely deployed vulnerability management solution including in 
the Federal Government where the majority of Government 
agencies use our technology to assess and manage their cyber 
risk.
    It is important to put mobility and wireless in the context 
of modern computing enterprise environments which are dynamic 
and borderless and virtually unlimited in connectivity. Mobile 
devices, wireless networks, transient user populations, cloud-
based infrastructure, web applications, and the shift to DevOps 
go hand in glove with the Internet of Things in invading our 
computing environments.
    Today's complex mix of computer platforms and applications 
combine to represent the modern attack surface where the assets 
themselves and their associated vulnerabilities are constantly 
expanding, contracting, and evolving, almost like a living 
organism, creating gaps in overall system understanding, 
security coverage, and resulting in underestimated exposure. 
Therefore, it is important that any approach to cybersecurity 
for mobile devices or wireless networks not be done in 
isolation but, rather, viewed as part of a holistic ecosystem.
    In over 20 years practicing information security, the 
following axiom proves true time and again. You cannot secure 
what you don't know about. If there are elements of your 
computing environment that are invisible or unknown to you, 
chances are that they represent unaccounted-for risk.
    Both the NIST Cybersecurity Framework and DHS's Continuous 
Diagnostics and Mitigation program call for identifying assets 
and vulnerabilities as the first step in cybersecurity. 
Identifying assets not just once but continually is foundation 
to assessing risk and developing effective security programs. 
My written testimony includes policy recommendations, a few of 
which I will highlight.
    First, we need a bold, new cyber workforce strategy that 
develops and advances the ranks of all people from different 
walks of life. Only through increased inclusion and diversity 
in perspective and thought can our industry achieve the greater 
creativity, innovation, and develop new solutions to our most 
vexing challenges.
    At Tenable we have implemented a Rooney Rule to set an 
example of greater diversity in our leadership ranks. I do want 
to state, however, that our efforts to expand the workforce 
will inevitably fall short of the insatiable demand for cyber 
talent and we have to prepare for that with a complementary 
focus on technology and automation.
    Second, the Government should encourage the private-sector 
companies to continually and fully assess their cybersecurity 
risk just as the Federal agencies will be doing and many 
regulatory requirements and best practices already mandate. 
Today, all organizations are part of a global ecosystem with a 
cyber hygiene responsibility to one another.
    Simple malware like WannaCry demonstrated what a very 
crippling cyber attack might do. The infection was spread 
company to company, many of which simply failed to adequately 
assess their cyber risk and act accordingly. Third, the Federal 
Government should continue to promote the NIST Cybersecurity 
Framework which, according to Gartner, will be adopted by 50 
percent of organizations by 2020.
    In closing, I want to emphasize the importance of taking an 
agile, continuous, and holistic approach to cybersecurity and 
technology policy. As we all know, IT is changing quickly 
across so many different dimensions. Prudence would have us 
look at mobile devices, wireless networks, and other 
technologies gaining great adoption in the broader context of 
our IT environments rather than in isolation.
    I would like to thank Chairman Blackburn, Ranking Member 
Doyle, and all the members of the subcommittee for their 
attention to this important issue and I will be happy to 
respond to your questions.
    [The prepared statement of Mr. Yoran follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. I thank the gentleman and he yields back 
and, Dr. Clancy, you are recognized for 5 minutes.

                  STATEMENT OF CHARLES CLANCY

    Dr. Clancy. Thank you, Chairman Blackburn, Ranking Member 
Doyle, and subcommittee members. I think we can all agree that 
there are major vulnerabilities in the larger ecosystem of 
wireless security that we have reason to be concerned about. I 
would like to focus my opening remarks a bit on the wireless 
infrastructure that underpins those networks.
    Over the last decade we have seen a fundamental shift of 
the DNA of the internet from the internet that connected 
stationary computers to fixed server infrastructure to one that 
is the social mobile internet. It is ubiquitous mobile 
broadband that connects smart phones and users to social media 
and the internet as a whole.
    This has again fundamentally changed the makeup of the 
traffic on the internet and the nature of the cybersecurity 
threat to the internet. Over the next decade we will see 
another titanic shift of the internet with the so-called 
Internet of Things which has been referred by several others so 
far, but the idea here is that we could see an increase of 20 
billion devices connected to the internet; again another 
fundamental titanic shift of the DNA of the internet.
    The wireless industry is working aggressively to address 
the needs of IoT with 5G wireless technology and is seeking to 
make sure that there are security components that are built 
into the infrastructure to address those needs. If you look at 
our cellular infrastructure today, the majority of us have 4G 
LTE coverage.
    And 4G LTE learned from the mistakes of 3G, which learned 
from the mistakes of 2G, which learned from the mistakes of 1G, 
and for the most part has the needed building blocks to develop 
and manage a secure, wireless, mobile broadband infrastructure. 
The key challenge we have though is that while 4G LTE is 
ubiquitously deployed, we still have 2G and 3G infrastructure 
that is operating, and much of the rest of the world has 2G and 
3G infrastructure operating that remains vulnerable to a wide 
range of different attacks.
    And in particular, in the last 12 months we have seen press 
around IMSI catchers or so-called StingRays that are able to 
compromise user privacy and the SS7 attacks that were able to 
impact user privacy as well. And the big challenge is not that 
4G LTE is insecure, it is just that we still have this legacy 
2G infrastructure deployed that remains insecure.
    Additionally, we have unlicensed bands, unlicensed 
technology, wireless technology-fueled innovation over the last 
decade or two, right. WiFi fundamentally transformed many 
aspects of how we connect to the internet and how internet is 
available to us. However, in the early days of WiFi there were 
rampant security vulnerabilities. My Ph.D. dissertation was 
studying those vulnerabilities and looking to address them in 
the standards that ultimately became WPA and WPA2, which 
ultimately shored up many of those vulnerabilities.
    And while home users and residential WiFi networks are for 
the most part secure through deployment of these new 
technologies, hotspots at everywhere from your coffee shop to 
airplanes remain insecure and are vulnerable to attacks that we 
have known about for 2 decades. So that remains, I think, a 
challenge as we look at the wireless ecosystem as a whole.
    Third, I would look at the services that operate over these 
networks, right. We have a very complex tapestry of members of 
this ecosystem. We have the device manufacturers, we have the 
operating system vendors, we have the people who write and 
develop apps that run on these systems. We have the cellular 
operators. We have the OEMs who build equipment for the 
cellular operators. We have the cloud providers and we have the 
median service entities that sit over top of all of it. And 
each of one of these different groups has a different 
regulatory focal point within the U.S. Government, whether it 
be the Federal Communications Commission or the Federal Trade 
Commission or DHS, and this creates a very complex ecosystem 
when seeking to achieve cybersecurity because no one entity 
across that entire continuum has enough control of the 
ecosystem to achieve unilateral security.
    So as a result, I think it is imperative that we look at 
cybersecurity as a partnership where we need stakeholders 
across all the, both Government and industry to be working 
together on developing solutions and deploying those solutions.
    And lastly, as a member of the academic community, I will 
reinforce the points that have been made earlier around 
workforce. There are over a million cybersecurity jobs here in 
the United States of which 31 percent are vacant. The number of 
new jobs in cybersecurity each year that become open exceeds 
the total volume of computer scientists graduating across the 
entire United States.
    So we need to think more broadly about how we fill these 
cybersecurity gaps, and we need to think of cybersecurity not 
just as a subdiscipline of computer science, but something that 
is fundamentally intrinsic to technology overall. And with that 
I will thank the chairman and conclude my remarks.
    [The prepared statement of Mr. Clancy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back and we thank you.
    Ms. Todt, you are recognized for 5 minutes.

                 STATEMENT OF KIERSTEN E. TODT

    Ms. Todt. Good morning, Chairman Blackburn and Ranking 
Member Doyle and members of the subcommittee. Thank you for the 
opportunity to present my testimony on the promotion of 
security in wireless technology. I am currently the managing 
partner of Liberty Group Ventures and a resident scholar in 
Washington, DC, at the University of Pittsburgh Institute for 
Cyber Law Policy and Security.
    I also serve on the Federal Advisory Board of Lookout, 
Incorporated, and most recently served from March 2016 to March 
2017 as the executive director of the presidential Commission 
on Enhancing National Cybersecurity. This Commission was 
bipartisan independent and was charged with developing 
actionable recommendations for growing and securing the digital 
economy as well as for creating a road map for the incoming 
administration.
    I appreciate this subcommittee's awareness of the need to 
focus on the security of wireless and mobile technology. In a 
world where first-to-market overrides secure-to-market and 
every enterprise is seeking to make operations move more 
quickly and be more convenient, addressing the security of 
these innovations is critical and absolutely necessary. In 
response to the questions posed by this hearing, my testimony 
will primarily focus on mobile security and addressing the 
growing threat around interdependencies in IoT.
    Mobile devices are an attack vector that cannot be ignored 
and they are increasingly targeted for access to sensitive 
information or financial gain, as we have heard thoughtfully 
from our other panelists. But mobility should not be at odds 
with security and the reality is that cloud and mobile adoption 
in the enterprise is just beginning.
    Mobile devices are a part of every supply chain in your 
home and in your office, and mobile devices have become much 
more than communications devices. They are the access point to 
our work and our personal lives. Additionally, with the rise of 
two-factor authentication--an important step in ensuring 
security, but not the ultimate solution--the smart phone has 
become even more important than the password.
    A compromised device could hand over to an attacker an 
authentication code and thus access to an individual's most 
personal information as well as any work related sensitive 
information. All mobile products have latent security 
vulnerabilities that could be exploited by bad actors and many 
users ignore security policies and download apps from 
unofficial sources.
    According to a recent Ponemon study, 67 percent of the 
Global 2000 reported that a data breach occurred as a result of 
employees using mobile devices to access the company's 
sensitive and confidential information. Last summer, Lookout 
and Citizen Lab detected the Pegasus spyware. Pegasus took 
advantage of three zero-day vulnerabilities in the iOS devices 
to take complete control of a device.
    The attack was capable of getting messages, calls, emails, 
logs, et cetera from apps including Facetime, Facebook, 
WhatsApp, Viber, Skype, Gmail and others. This threat 
represents the first time anyone has seen a remote jailbreak of 
an Apple device in the wild and shows us that highly resourced 
actors see the mobile platform as a fertile platform for 
gathering information.
    Historically, Government agencies have been restrictive 
about the use of mobile devices in the workplace. Perhaps 
because agencies now recognize that mobility is happening with 
or without their permission, we are beginning to see a shift 
towards prioritizing mobility initiatives in the Federal 
Government. The bottom line is that smart phones are 
essentially a super computer, as my colleague Mr. Wright noted, 
and today most have absolutely no security software on them. 
Mandates or policies stipulating that mobile devices must have 
an agent on the device that does predictive analytics should be 
considered.
    I would like to take this opportunity to commend John 
Ramsey the CISO of the U.S. House of Representatives for his 
focus and recent action on mobile security. This example is one 
where Congress is ahead of the executive branch in implementing 
a cybersecurity best practice, and I encourage this committee, 
perhaps in collaboration with the House Homeland Security 
Committee, to hold a hearing on and to examine how Federal 
agencies can do a better job to defend against mobile security 
risks and to take a page from the U.S. House of 
Representatives.
    Our interconnections and interdependencies are becoming 
more complex and now extend well beyond critical 
infrastructure. These interconnections reduce the importance of 
the critical infrastructure label because by association all 
dependencies may be critical as we saw with the Dyn/Mirai 
attack last fall. The proliferation of IoT devices is a growing 
challenge, and for the purpose of this hearing I offer the 
automobile as an example of interconnected devices.
    A Tesla is really a giant phone and battery on wheels. The 
base technology for connected cars originates from the smart 
phone revolution. And IoT and all of the technology that goes 
into connected cars, for example, is based on open source code 
that is genetically related to smart phones.
    We need to recognize that neither the Government nor the 
private sector can capably protect systems and networks without 
close and extensive cooperation. The mobile environment only 
adds to the challenge and urgency to develop an approach that 
emphasizes pre-event collaboration, which I describe in my 
written testimony, to more effectively manage our collective 
cybersecurity risk.
    As Representative Eshoo noted, Government does instant 
response well, but we need to be doing more to focus on 
prevention and collaboration before an event actually occurs. 
Information sharing is a byproduct of trust that develops 
through that type of collaboration. We now recognize mobile 
security as one of the greatest risks affecting all enterprises 
and we therefore need to treat mobile devices as an endpoint 
priority equal to, if not more important than, traditional 
endpoints such as desktops and laptops.
    Thank you for the opportunity to testify in front of you 
today. I look forward to answering your questions.
    [The prepared statement of Ms. Todt follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. Thank you so much. That was wonderful 
testimony, zipping right through it. And so we will begin with 
questions and I will yield myself 5 minutes and begin the 
questions.
    Mr. Wright, I am going to start right there with you. We 
know and you all have referenced some of the public-private 
partnership, the Government-industry partnerships that have 
moved forward and attempted to look at best practices in the 
mobile cyberspace. NIST, we have mentioned that a couple of 
times their framework and CTIA Cyber Working Group.
    So is standard setting enough, is best practices enough, or 
do we still need to have a statutorial legislative solution?
    Mr. Wright. I think it might be a little early to tell. 
Right now following some of the NIST and cybersecurity 
framework guidelines I think is working. I think there are a 
lot of private sector that are currently adopting part of the 
executive order. It is going to get more of the Government 
using the NIST Cybersecurity Framework, but there is a lot of 
other cooperation going on between public and private sector as 
well.
    I think if WannaCry had happened 2 years ago, it would have 
been a much different story. Today, this time you had 
Government and the private sector coming together immediately 
within hours of the outbreak starting, sharing information, 
sharing indicators of compromise, and you ended up getting sort 
of a much, much better result.
    At Symantec, I know we take our Government and our private-
sector relationships very seriously, most oftentimes focused on 
law enforcement. But that sort of private-sector industry and 
Government partnering, I think, really is the key to this. 
There is no government around that is going to be able to fight 
this problem alone and there certainly is no private company 
that is going to be able to fight this alone.
    Mrs. Blackburn. OK. Anyone else want to add something? Ms. 
Todt?
    Ms. Todt. If I may. So I had the privilege of working with 
NIST on the development of the Cybersecurity Framework, and one 
of the reasons why it continues to be so successful is it was 
developed by industry for industry, so then there is an 
approach that industry is then allowed to take to understand 
how to manage its risks.
    And I think one of the strong points to the executive order 
that President Trump released was the focus on risk management, 
and I think when you are looking for industry and Government to 
come together having that focus on risk management from a 
collaboration perspective helps to develop those standards.
    What we concluded in the Commission report was that private 
and public sector they should work together. When they don't 
work together we should create incentives and when those 
incentives don't work then we should interfere with regulation 
and other types of official standards.
    Mrs. Blackburn. OK, anyone else?
    Dr. Clancy, let me ask you. You talked a little bit about 
the Internet of Things and the connected devices. And of course 
we have a forum going on today, a showcase dealing with some of 
that. I want you to expand a little bit on the challenges of 
securing the IoT devices, especially the wearable technologies, 
and what would be some of the consequences of our failing to 
adequately secure IoT devices if you have 20 billion such 
devices connected to the internet in a few years, and what do 
you see that framework, those challenges?
    Dr. Clancy. Well, I think that IoT represents a breadth of 
different products and technologies. You have your internet-
connected----
    Mrs. Blackburn. Right, let's focus on the wearable 
technologies.
    Dr. Clancy. OK. So with respect to wearable, I think some 
of the chief concerns are privacy of individual users. And we 
want to make sure that data that is collected from those 
devices and ingested into the cloud and used as part of whether 
it is some health app or some other service to consumers that 
that data remains private and isn't used to compromise the 
privacy that use that information.
    I think some of the challenges we have are that much of the 
devices are manufactured overseas. We have supply chain 
challenges and code quality challenges with the software that 
is in those devices and that results in devices that we don't 
know if are robust or not. Many times they connect through 
unlicensed WiFi devices and there is no strong credentials or 
authentication that can be used to provide real governance over 
those devices. There is no way to push out software updates, 
for example, in a deterministic way if there are 
vulnerabilities that are discovered.
    So I think those are some of the challenges that we face 
and particularly in the wearable space of IoT.
    Mrs. Blackburn. Thank you. Before I yield back my time I 
will, my colleagues across the aisle have mentioned Russia a 
couple of times. And I would just like to highlight that we 
have in times past tried to raise Russia and our concerns there 
is an issue and indeed with items manufactured offshore, I 
think Huawei. We did a hearing on cyber and Huawei and concerns 
with Russia and then even in the 2012 Presidential Mr. Romney 
raised Russia as a concern.
    I would also highlight with my colleagues we have privacy 
and data security legislation we would love to move forward on. 
We look forward to having them join us in working on these 
issues. And with that I yield back my time and recognize the 
gentleman from Pennsylvania for 5 minutes for questions.
    Mr. Doyle. Thank you, Madam Chair. So as the threats we 
face continue to evolve and grow it seems that we not only need 
to step up our basic practices of cyber hygiene and best 
practices, but we need to look to the future. And the 
witnesses, all of you in your testimony, refer to the shortfall 
in the workforce for cybersecurity positions.
    I know that DARPA in 2016 had the Cyber Grand Challenge and 
they challenged researchers to create autonomous systems that 
could defend against cyber attacks. Actually, a team from 
Carnegie Mellon won that challenge, a victory that we are proud 
of in Pittsburgh.
    But I am curious. How does the panel see autonomous 
defensive systems addressing this escalation in threats in our 
workforce shortfalls? And we can just start at Mr. Wright and 
go down. Please.
    Mr. Wright. Certainly the shortage in qualified cyber 
personnel is a problem today. It is going to be a problem in 
the future. I think the more that we can move toward autonomous 
defenses the better off we are going to be. I don't think the 
technology is there today, but it is getting better every day. 
That type of innovation I know is a huge focus for not just for 
Symantec but for other vendors as well.
    Mr. Doyle. Thank you. Mr. Yoran?
    Mr. Yoran. I think that there is great promise and 
certainly progress being made in autonomous defenses, a lot of 
work going on in the cyber domain around artificial 
intelligence. From my perspective, the key to success is to 
scale the talent that we have asymmetrically. Part of that 
would be through autonomous defense, part of it would be 
through other technologies which provide the limited number of 
network defenders to cover more ground.
    Dr. Clancy. I would agree with that. I think the major 
opportunity with autonomous defense is to act as a force 
multiplier for those human analysts who ultimately are making 
decisions about what defenses to deploy and how to manage them. 
We are seeing a renaissance of artificial intelligence right 
now with deep learning and early research. Applying that to 
cybersecurity looks very, very promising. But that will help 
make existing analysts and cyber defenders more efficient, but 
they will always still need to be part of the equation.
    Mr. Doyle. Sure.
    Ms. Todt. I would like to just approach it from a little 
bit of a different perspective in the sense that from the 
workforce we look at the fact--what we heard on the Commission 
particularly is that there are two issues. The current 
workforce that we have isn't trained effectively for the skill 
sets that are needed and we also need to be bringing in 
additional individuals into the workforce.
    But this needs to happen while automation, AI, big data 
machine learning, are all being developed and so what we have 
to understand is that the culture of cybersecurity that is 
being created covers everything. And arguably, everybody is a 
part of the cyber workforce, so while developing that workforce 
we are also being able to invest in the innovation that can 
contribute to the autonomous defense that you mentioned.
    Mr. Doyle. Thank you. Let me ask the panel this also. You 
know, as we look to the range of threats by government, 
industry, institution to individuals, we acknowledge we all 
have a shared responsibility to defend and protect this 
infrastructure. So what role do you think ISPs can play in 
mitigating cyber threats whether it be a botnet, malware, or 
some other threat, do you think Federal agencies should have 
more authority to mandate either concrete steps or risk 
mitigation frameworks to ensure that these companies take 
sufficient steps to protect these networks if they are not 
doing it on their own? And for anyone on the panel.
    Mr. Yoran. Sounds like a dangerous question. I will take a 
stab at it. I think that there is an opportunity for service 
providers to differentiate themselves based on security service 
levels and we have seen a number of service providers take a 
very proactive approach to their security programs and offer 
security services and protective services as part of these 
packages and using it as a differentiation.
    When you get to a point of mandating security, I think you 
are on a very slippery slope and potentially dangerous scenario 
where the service providers don't necessarily own the 
applications. They don't understand the ways the systems are 
being used and what impact might occur if they choose to block 
certain types of traffic or not.
    So there is merit in further investigating the concept, I 
just think it should be done very cautiously.
    Ms. Todt. And I just would like to add, from the executive 
order this was one of the key issues that was raised and it was 
also something that created a lot of initial tension with the 
Commission to understand whose role, who is responsible for 
what. As Amit said, I mean this is dangerous territory and 
there was a lot of discussion and debate.
    But what the executive order lays out and I think what 
industry has said is essentially we need to come together to 
understand where the responsibilities lie and how to create a 
road map for moving forward. This is clearly an issue for 
collaboration between industry and Government.
    Mr. Doyle. Thank you. Thank you, Madam Chair. I yield back.
    Mrs. Blackburn. The gentleman yields back. Mr. Lance, for 5 
minutes.
    Mr. Lance. Thank you. I promise no dangerous questions and 
you have all answered them very beautifully and very adeptly in 
my judgment.
    Dr. Clancy, you mentioned in your testimony that 5G 
technologies have the opportunity to close current 
cybersecurity gaps. Can you please expand on what these 
cybersecurity gaps are and how the industry 5G innovations can 
help close the gaps?
    Dr. Clancy. I think that as you look at the shift, the 
technology shift that has happened as we move from the 3G and 
2G core network infrastructure to the 4G core network 
infrastructure, we have moved away from the old circuit switch 
technology and into all IP-based cell phone backhaul and 
backbone.
    This is creating a range of new opportunities for new 
technologies and new services that can be provided through this 
infrastructure and it also exposes much of the cellular 
infrastructure to the same sorts of risks that you face on the 
internet. Before, we had a closed circuit switch network that 
was isolated from the internet; now the barrier between the 
internet and the cell phone core infrastructure begins to get 
blurry because of the structure of the 4G infrastructure.
    5G actually blurs the line even further with technologies 
like edge computing, a cloud-based Radio Access Network 
technology. However, these are new tools in the toolbox that 
could be used to construct a better set of layered cyber 
defenses on behalf of subscribers, but we still haven't yet 
from a research and standards perspective really figured out 
how all of that will fit together.
    Mr. Lance. Thank you. Mr. Yoran, as we saw with the attack 
last year, unsecured Internet of Things devices, can pose a 
threat to the other areas of the internet ecosystem. With 
billions of IoT devices expected to come to market in the 
coming years, it is essential that this vulnerability be 
addressed. Do you see the NIST Cybersecurity Framework as the 
best approach to address Internet of Things security?
    Mr. Yoran. I think the NIST Cybersecurity Framework is 
probably the best place to begin the dialogue around Internet 
of Things security. At the end of the day, we have to take a 
holistic approach to cybersecurity. We can't look at multiple 
devices independently, we can't look at wireless networks 
independently or Internet of Things independently. These things 
are completely intertwined. Internet of Things most frequently 
rely on wireless networks for their communications so they have 
to be looked at.
    And I think the most important thing from my perspective 
that the Cybersecurity Framework pushed toward was taking a 
risk-based approach, because no use of technology is risk-free 
so understanding it from a risk perspective is really helpful.
    Mr. Lance. Would anyone else on the panel like to comment?
    Ms. Todt. Just a quick comment. That is one of the issues 
that was brought up also in the executive order and from the 
Commission which is to bring together, as Amit said, bringing 
together industry and Government based off of the platform. So 
I think there is motion already in place at NIST to move 
forward with this to be able to create a set of standards that 
industry creates for itself.
    Mr. Lance. I couldn't agree with that more in that industry 
is often ahead of us in Government and we want to work in a 
cooperative way. But my belief, based upon the last 20 years, 
is that we are innovative because of the way we have approached 
this and certainly we want the United States to continue to be 
the innovative center of the world regarding these matters.
    I represent a district that is very heavily involved in 
technology and in the internet and we want that to continue. We 
don't want to lose leadership to some other place around the 
globe. Thank you, Chair, and I yield back a minute.
    Mrs. Blackburn. And we will take it. And Mr. McNerney, 5 
minutes.
    Mr. McNerney. I thank the chairwoman. Ms. Todt, in your 
written testimony you talked about the world where first to 
market overrides secure to market. Would you agree that we are 
currently faced with a market failure since those who buy and 
sell insecure devices now have to bear the full cost of those 
devices?
    Ms. Todt. So I think you have asked a question that is 
really at the crux of the IoT debate, because as long as we are 
pushing out innovation without any security guidelines or 
boundaries we are in this second phase.
    A colleague of Mr. Wright's at Symantec was part of the 
NSTAC report who talked about this first 18-month window that 
we have passed on the proliferation of IoT devices. And where 
we are now is that we heard from, in one of our Commission 
hearings, the CIO of Intel who said we want regulations and 
standards around IoT devices because we can't possibly compete 
in this realm where you have small businesses pushing out the 
innovation.
    So we have to think thoughtfully about incentives, 
penalties, and being able to truly develop secure by design, 
which is unfortunately becoming one of those terms that is 
losing its meaning because it is such a common term. But the 
idea of building security in and having to build software and 
hardware to certain standards around security has to be a 
priority right now with, as we have heard, all of the 
statistics the proliferation of IoT devices that is only going 
to increase.
    Mr. McNerney. Well, you sort of answered my follow-up 
question already which was I proposed legislation that would 
require cybersecurity standards to be developed for the devices 
and for the devices to be certified to meet those standards. 
Would that help decrease the threat?
    Ms. Todt. So I think it actually connects back to an 
earlier question which is how do we build out the IoT 
standards? And I would offer that where we have seen such 
success with the NIST Framework is the fact that industry and 
Government have worked together and so really looking at that 
collaboration first and foremost and then being able to inform 
any legislation.
    I think the sequence of that is important because we learn 
from what industry has done and we have to come together to 
then develop the standards that you reference.
    Mr. McNerney. OK, thank you. Mr. Wright, Symantec's 
Internet Security Threat Report points to a growing number of 
attacks on IoT devices. Would requiring the IoT devices to meet 
baseline cybersecurity standards help decrease that threat? Is 
your microphone on?
    Mr. Wright. It certainly would be something to look into. I 
also agree that the NIST Cybersecurity Framework is a good 
place to begin a lot of those discussions. IoT is a little bit 
strange. The consumer isn't really playing the role of 
demanding secure products at this point. Some of that could be 
around awareness. Thirty six percent of the devices that are 
being manufactured and pushed out there right now have a 
default password of ADMIN. Some of these are very simple fixes. 
I think when the consumers are armed and aware of the dangers 
they have a better chance of driving some of those markets.
    Mr. McNerney. Well, although the WannaCry ransomware attack 
was not the result of insecure IoT devices, I am curious about 
what lessons we can apply from the attack to IoT device 
security. How susceptible are IoT devices to ransomware 
attacks?
    Mr. Wright. So we have seen some preliminary more like 
research around IoT. We did a research project where a smart TV 
was hacked in ransomware. Like I said earlier in my testimony, 
criminals are looking for ways to monetize these attacks. They 
are only bound by their imagination and it is a matter of time 
before they are able to figure out how to monetize ransomware 
attacks on devices, on IoT devices.
    Mr. McNerney. Well, are there a way that an IoT security or 
insecurity could result in physical harm?
    Mr. Wright. Certainly. IoT devices that are infected can 
have real-world consequences, absolutely.
    Mr. McNerney. And just to explain, how come it is difficult 
to patch IoT devices?
    Mr. Wright. Well, a lot of times these are being shipped 
out without any possibility of sending out firmware changes. In 
fact, most of them cannot receive patches or updates.
    Mr. McNerney. So could we, in your opinion, rely on 
voluntary IoT device security from the manufacturers?
    Mr. Wright. Well, I do think this needs to be sort of a 
consensus-driven standard. We need to have private sector 
involved. We need to have Government involved and sort of find 
that middle ground, otherwise it is not going to work.
    I will point out one thing. The Mirai botnet that we were 
discussing today, those devices were not manufactured in the 
U.S. but rather the vast majority of them were manufactured 
overseas, specifically in China.
    Mr. McNerney. OK. Before I yield I just want to say I 
appreciate Ms. Todt's remark that Government does respond well 
but needs to do prevention better. Thank you. I yield back.
    Mrs. Blackburn. Mr. Shimkus, you are recognized for 5 
minutes.
    Mr. Shimkus. Thank you, Madam Chair. And this is an 
excellent hearing. I do want to thank you all for coming. This 
is like an arms race. And the reason why I have always enjoyed 
this committee is that, you know, technology moves faster than 
we can regulate, hence it is very successful. Well, and that is 
part of this debate.
    I mean, do we do Federal standards and really almost slow 
up the ability for expansion and new applications or, and so 
that is why I think most people are talking about consensus 
base working with the sector, because if we don't we will trip 
over ourselves and we will slow applications, we will slow 
development. And that is why I think you see us kind of doing 
this little kabuki dance between the sides because it is just a 
very exciting, but there is a lot of dangers out there and 
people are going to take as was just said, you can't control 
what the bad actors are going to try to do to get access.
    But I also appreciated the comment that for a manufacturer 
or a provider they can, having secure information is marketable 
and should be, they could market it as a premium for the 
services they are providing and I think we have some businesses 
here that wrap around this. I think the average individual, we 
understand having a security office in a corporate setting and 
probably a sub under the security is data security and 
obviously, you know, this wireless technology and all these 
things as a subsection.
    So when we hire, when you are looking for a computer 
programmer to go in cyber, in the cyber world, what is a new 
engineering computer programmer, what are they going to be 
doing? I am sure there is a plethora of things, but I mean are 
they just going to be sitting at a screen watching interactions 
and trying to pick out and identify an attack?
    I mean we have all been in, I have been in nuclear, you 
know, power plants. I have been in data centers. I have been 
with screens all over the place. Is that what they are doing? 
Is that what a computer programmer in cybersecurity ends up 
doing?
    Mr. Yoran, do you want to answer that?
    Mr. Yoran. I will take a crack at it. In my experience, the 
best cybersecurity professionals are the ones that just show a 
tremendous amount of intellectual curiosity in what they are 
looking at, and sometimes it comes through formal training and 
discipline and frequently it doesn't. It is usually not the 
analyst who is sitting behind a screen watching logs go by and 
trying to pick and choose which one to dig into that is going 
to make the difference or that is going to scale our industry.
    If I could, I think the comment that you made and the 
Congressman from California are, I won't say two sides of the 
same coin, but they point to this foundational question of, you 
know, is there a market failure and what can and should 
Congress do about it. And from my experience, I think it would 
be hard to argue that a market, you know, we are not at a point 
of market failure, everything from, you know, the election to 
the hack that you see in every newspaper or news distribution 
point, even real news distribution point on a daily basis.
    In order for free markets to work you have to have an 
educated populous and you have to have a high degree of 
transparency and I think in the cyber domain we lack that 
transparency. There is a general lack of appreciation for what 
the threat environment looks like. There isn't a consistent 
understanding of what good cybersecurity looks like, what is 
working in our domain. There is a lack of transparency when 
breaches occur outside of ones that impact PII.
    And so there isn't a common appreciation for what is not 
working and also I think what is at stake and what is at risk 
in using various products. So I think that there is a role for 
Congress to play around helping to raise awareness and create 
greater transparency.
    Mr. Shimkus. Let me go to just Dr. Clancy real quick 
because my time is running out. When we travel, which we as 
Members get a chance to do, we are visiting troops, many times 
we are asked to leave our computer at home and we are given a 
little dinky one to be able to continue to communicate. How are 
we, how secure is the U.S. wireless system versus places else 
around the world?
    Dr. Clancy. I would say the United States has the most 
secure wireless infrastructure in the world. I think the things 
that lead to insecurity in other countries' networks have to do 
with deployment and use of old technology, a workforce that is 
managing those networks that is not aware of the latest 
threats, and the influence of authoritarian regimes over state-
owned telecom infrastructure providers in many of those 
countries.
    Mr. Shimkus. Thank you very much. Thank you, Madam 
Chairman.
    Mrs. Blackburn. Ms. Matsui, you are recognized for 5 
minutes.
    Ms. Matsui. Thank you, Madam Chair, for having this hearing 
and I thank the witnesses for being here today. Wireless 
technology and connectedness and of data and information have 
huge potential to move us forward in a variety of industries.
    Ms. Todt, you mentioned in your testimony that you recently 
had blood work done and were told the only way you could access 
the results was by downloading an app on your smart phone. I 
see both potential for good and for danger in this situation. 
It may be much more convenient for you to receive your test 
results visually on your phone rather than via snail mail or 
fax or a phone call. This could result in you acting on that 
information in a more timely or consistent manner, potentially 
improving your health.
    However, that also means that your data is potentially 
vulnerable. We saw the risk with the recent malware attacks 
that brought down hospital systems. Without access to the 
information that the doctors and nurses relied on to treat 
their patients they could no longer do so effectively.
    Our healthcare system is uniquely at risk of attacks. Most 
professionals who go into the healthcare field often including 
administrators don't have a cybersecurity background. We need 
to work to ensure that our healthcare providers have the 
technological infrastructure and workforce to manage the 
complex data that they need to best serve patients.
    Last week, the Department of Health and Human Services 
released its Healthcare Industry Cybersecurity Task Force 
Report. Among other things, the report recommended executive 
education about the importance of cybersecurity. Ms. Todt and 
any of the other witnesses, what recommendations do you have 
for developing cybersecurity leadership in industries such as 
health care?
    Ms. Todt. Thank you. I am now convinced given what the 
chairman said that I was one of the 100 million that got my 
healthcare records breached last year, but that is something 
else for me to figure out. I think that what you ask is a great 
question in relation to also the other questions that have been 
posed around IoT and workforce, because we tend to think of 
cybersecurity workforce as those with the engineering degrees.
    But what we have to understand in the workforce that we are 
creating is that everybody has to be educated on cybersecurity. 
This is not an expertise; it crosses every enterprise. And 
arguably, I would think that human resources professionals, 
those who are hiring, have to have a baseline level of 
knowledge. The other issue is that when you are a manager you 
have to be trained in cybersecurity so that you know what you 
are doing regardless of whether or not your function is cyber 
related.
    And I think enterprises need to be looking at cybersecurity 
education the way, as an onboarding process, the way they look 
at ethics and integrity and basic company protocols and 
procedures. We have to be incorporating cybersecurity awareness 
and education from the ground up to create this culture and I 
think that this is something as we move forward to emphasize.
    The other issue that this is more of a technical response 
but we talk about the education of user awareness. From a 
technology perspective while we are educating the consumers and 
the individuals and industries and enterprises, we also need to 
be thinking about moving security away from the end user from 
an innovation perspective.
    Ms. Matsui. OK. Thank you very much and let me move on to 
Dr. Clancy. Dr. Clancy, according to one study, none of 
America's top-10 computer science programs as ranked by the 
U.S. News and World Report in 2015 required graduates to take 
one cybersecurity course. Three of the top 10 programs didn't 
offer an elective in cybersecurity.
    But with the rise of cyber attacks and security breaches in 
our networks and the shortage of cybersecurity professionals, 
it is imperative that our students graduate with the course 
work needed to be able to tackle security issues. Dr. Clancy, 
how can Congress encourage our colleges and universities to 
prepare students either through expanding courses, hiring more 
faculty, or other innovative solutions for careers in 
cybersecurity?
    Dr. Clancy. So I think the reason you may see that in some 
of the top-ranked programs is it is the traditional academic 
culture that cybersecurity is a buzz word and is a fad, and 
myself and others in academia are working very hard to convince 
them otherwise that this is a fundamental problem that is going 
to be with us indefinitely. I think there are a number of 
programs that are very positively impacting this ecosystem to 
include NSA's Centers of Academic Excellence program and the 
CyberCorps Scholarship for Service program.
    While the CyberCorps program provides scholarship money for 
students to pursue careers in Government upon graduation like a 
cyber ROTC program, the funding helps the university establish 
a platform that can educate students in cybersecurity who go 
into many different careers, not just into Federal Government. 
We saw that directly at Virginia Tech as part of our receipt of 
a CyberCorps grant. I think more initiatives and further 
investment in programs like that is a great place to start.
    Ms. Matsui. OK, thank you. And I have run out of time, I 
yield back.
    Mrs. Blackburn. Mr. Olson, you are recognized.
    Mr. Olson. I thank the Chair and welcome to all of our 
witnesses. Mr. Yoran, thank you, sir, for your service to our 
country in our United States Army, West Point graduate. 
Heartfelt congratulations as well, because with assist from 
Temple for the first time in 15 years your Navy beat my Army in 
football. Bravo Zulu.
    Your testimony talks about elastic attack surface that 
includes a growing number of information technology devices. 
Being the vice chairman of the Energy Subcommittee, I worry 
about cyber attacks on our power grid. December 23rd, 2015, 
230,000 people in the Ukraine were without power for 1 to 6 
hours, a cyber attack likely coming from Comrade Putin in 
Russia. It was very low tech. They simply remotely flipped some 
switches.
    What kind of advice does your company provide to critical 
infrastructure companies in our electric grid regarding how to 
best protect their systems for cyber attack?
    Mr. Yoran. Thank you, Congressman. I think that is an 
ongoing challenge. As early as last night, the US-CERT program 
issued additional warning and guidance to energy and critical 
infrastructure companies around the Crash Override piece of 
malware which is affecting power companies around the world.
    From a security perspective there is a great challenge in 
that industry in that the systems are incapable of being 
updated or there is tremendous risk in updating those systems 
which, unlike our mobile phones or desktop PCs, have a life 
span measured in decades. From a best practices perspective 
these organizations have historically left those critical 
networks in the standalone state, but increasingly they are 
interconnected.
    We offer technologies and other companies offer 
technologies that help monitor these networks on a passive 
basis, so without introducing additional risk, additional 
packets, or probing those networks you can see what they are 
vulnerable to and you can create a series of compensating 
controls to protect those systems from internet compromise.
    Mr. Olson. Also you brought up artificial intelligence. And 
as a co-chair of the recently launched Artificial Intelligence 
Caucus, I believe it is important that we use cybersecurity 
technology to complement the work of the talented human brains 
that make this happen.
    We know that technology alone won't solve the cybersecurity 
issues we have, but can you elaborate on how leveraging this 
technology for the growing AI field will work do you think, 
cybersecurity in the AI field--or Mr. Wright, Dr. Clancy, Ms. 
Todt? Somebody want to take that? It is not bomb, not a 
grenade.
    Dr. Clancy. I am happy to take a stab at that. I think the 
DARPA Cyber Grand Challenge that we saw last year is an example 
of a first step in being able to accomplish that. As I 
mentioned earlier, I think that AI will become initially a tool 
that helps analysts do their job more effectively and more 
scalably to deal with the growing threat and larger and larger 
amounts of data.
    There is an AI renaissance that is happening, right. There 
are fundamental advancements that are happening that are 
completely changing the world of image processing and search 
that Google and others are leading. And I think there are many 
in the cybersecurity community that are hoping that those 
technologies can be applied to the cyber problem, but that is 
still an early research area that many people are sort of 
feverishly working on right now in academia.
    Mr. Olson. Ms. Todt, you look like you are chomping at the 
bit to comment. Am I reading that wrong?
    Ms. Todt. Just in support I think that we need to be 
investing obviously in innovation. I was on a panel with 
somebody who used to work at DARPA who essentially talked about 
the fact that there are functions that really aren't meant for 
humans and that our ability to automate and make those 
functions more capable through super-computing will help our 
systems work more effectively.
    Mr. Olson. One final question for you, Mr. Yoran. We are 
seeing an explosion of free WiFi hotspots all around the 
country, whether they are there at the corner coffeehouse, the 
Starbucks, the airport, the airplanes you mentioned; heck, the 
Mr. Carwash right down the street from my house. My daughter 
and wife go there all the time. It has a free hotspot just for 
the 20 minutes you are there.
    Do they offer unique challenges to safeguard? If so, what 
should be done on the network side as opposed to the user side?
    Mr. Yoran. Well, I think the most important thing is to 
recognize that whether you are going to a public hotspot or you 
get fooled into connecting to a rogue hotspot or you are 
connected to a corporate network which is already compromised 
and frequently is, the most important thing that you can do and 
that organizations can do is better assess the vulnerability 
and exposure of their systems and make sure that they are 
applying the latest patches and they don't fall victim. A vast 
majority of the attacks that we see come from well-known, well 
established vulnerabilities to which patches are readily 
available.
    Mr. Olson. Good luck, Army. I yield back.
    Mrs. Blackburn. Mrs. Dingell, you are recognized.
    Mrs. Dingell. Thank you, Madam Chair, and thank you for 
doing this hearing and to all of the witnesses. There are so 
many questions. Cybersecurity is something that should concern 
all of us. And as somebody who has been hacked more than 
anybody would want to be I can tell you it is a pain to have to 
change your password and switch to two-factor authentication 
and worry about personal information being compromised.
    I think what--and not even what I prepared--what is really 
worrying me is some of the factoids that you have raised here 
today. I think one of the issues is training people. Even when 
you have trained IT people and you go to them and you ask a 
question--ask John Podesta, myself have done this--``Should I 
do this?'' And they say, ``Oh yes,'' and then it turns out not 
to be the right thing. I think I got one last night that I have 
now been burnt so much I was smart enough to wait and talk to 
somebody today.
    And I really worry about, as we start to talk about 
autonomous vehicles, as an example, if people don't--how are we 
going to make sure patches that need to occur occur, and when 
they don't, even when we look at the health care, what happened 
on the health care situation, there were simple patches 
available that users aren't using. How do you legislate that? 
These are real issues.
    But for these 5 minutes, which are now down to 3 minutes 
and 45 seconds, let's talk about mobile phones, which as you 
said, Mr. Wright, are basically super computers we have in our 
pockets. Our phones are always by our sides. We store our most 
intimate and personal details in them. And it is happening now 
and in the near future people are going to be locked out of 
their phones and in turn will be locked out of personal, 
social, financial information. That is a new experience for 
everyone. We are going to see this high level of hysteria, and 
we have got to pay attention to it.
    So this question is for the entire panel. Ransomware is now 
available as a service making it incredibly easy for criminals 
to carry out an attack. What can Government do from a policy 
perspective to increase barriers to entry and the cost of 
carrying out ransomware attacks, and do you think the threat of 
a ransomware attack on a mobile device will only continue to 
increase if the Government doesn't do something, any of the 
panel?
    Mr. Wright. I can start out here. Starting with your last 
question I think that mobile ransomware will probably increase 
no matter what is done. Again the criminals follow the money 
and right now your handheld computer is where that money or 
where that data is. When they can figure out how to monetize 
locking up that phone or encrypting that data on your phone 
enough to the point where you will pay to get it back, then in 
that case mostly not get the data back, they will exploit that.
    Mr. Yoran. I don't think any of us are comfortable with the 
state of security on mobile phones, but I think a lot of 
progress has been made. A lot of lessons have been learned in 
the--some have not, but a lot of lessons have been learned in 
the mobile domain from decades of mistakes and accidents in 
operating systems and in compute platforms from the desktop 
paradigm.
    So I am confident that we will see an increase in 
ransomware no matter what is done on mobile platforms given how 
attractive they are as a target, but I think the industry is 
making progress to make that more and more challenging over 
time.
    Dr. Clancy. I think that if you look at ransomware it is 
leveraging the same vulnerabilities that people have used to 
exploit mobile devices for the last decade. So continued work 
to make sure patches are deployed and apps are updated is 
critical to closing the front door, if you will, to ransomware.
    I think other areas that are somewhat unique to ransomware 
have to do with educating users about the importance of backing 
up their data so if they are a victim of ransomware attack they 
are able to recover their data. Many cellular providers offer 
free services to back up your data on your phone to the cloud 
and consumers need to take advantage of that.
    Secondly, I think there is really the forensic and law 
enforcement side of being able to follow the money and be able 
to take down the ransomware networks which is increasingly 
difficult with the rise of bitcoin and other crypto currencies, 
but that is perhaps a larger question.
    Ms. Todt. I think ransomware represents sometimes a little 
bit of the flavor of the day in that we have these problems 
that continue to evolve, but the solutions for them are the 
same when we look at WannaCry which was, you know, essentially 
not updating with patches that are there. So it is a lot of the 
cyber hygiene that we have talked about and the regular 
download.
    I think it is also important, you raise an interesting 
element to this which it is often important to remember that 
attacks and when data is compromised or manipulated it is not 
usually because there is some engineering expertise or genius, 
it is really about opportunism and being able to access and 
exploit that opportunism. And so that is why education, backing 
up, all of those very basic actions can really cover about 80 
percent of the solution.
    Mrs. Dingell. I had more questions, but I am out of time. 
Thank you, Madam Chair.
    Mrs. Blackburn. And we will give the opportunity to submit 
those questions in writing. Mr. Johnson, you are recognized, 5 
minutes.
    Mr. Johnson. Thank you, Madam Chairman.
    Mr. Yoran, in your testimony you note that there is a 
shortage of skilled labor in the cybersecurity workforce. How 
acute is that shortage? Has it manifested itself in your 
company? Do you have a problem hiring those kind of people in 
your own business?
    Mr. Yoran. That is a great question. It is extremely 
competitive to hire experienced cybersecurity professionals. 
The compensation is great and as they continue to gain 
experience, you know, their expectations continue to rise.
    Mr. Johnson. On the technical or the strategic side, 
because I mean there is a big difference between people that 
understand what cybersecurity is and those people that can get 
down to the ones and zeros and kind of do the technical 
wherewithal to find out who the bad guys are.
    Mr. Yoran. I think there is really a shortage on both 
fronts, which is why I think the importance of Dr. Clancy's 
comments around the multidisciplinary approach to 
cybersecurity. What we found is in addition to compensation 
there is two other critical aspects to attracting and retaining 
cybersecurity talent. One is in providing them intellectually 
stimulating work. It is an exciting field and if you don't give 
them exciting problems they will go elsewhere to find them. And 
the other is in creating a culture that is dynamic and one that 
is enjoyable to be part of.
    Mr. Johnson. OK. Do you think we have the same level of 
expertise shortage in finding skilled workforce in Government 
agencies or departments? Is it worse, the same?
    Mr. Yoran. I don't know that I have the data in front of me 
to comment whether it is worse or the same. I do know that a 
tremendous amount of expertise in the private sector starts out 
getting its experience in public service which is costly to the 
Government in terms of losing that talent, but I think it 
provides tremendous value to the private sector in terms of the 
level of maturity and understanding of very sophisticated cyber 
threats.
    Mr. Johnson. OK, all right. Thank you.
    Dr. Clancy, what a name for a topic like cybersecurity. And 
if your first name was Tom you would be----
    Dr. Clancy. It actually is.
    Mr. Johnson. Yes. I would consider changing it if I were 
you.
    Dr. Clancy. No, no, seriously, my name is Tom Clancy.
    Mr. Johnson. OK, all right. Will the real Tom Clancy please 
stand up?
    Dr. Clancy. I go by my middle name Charles. It causes too 
much confusion.
    Mr. Johnson. Well, Dr. Clancy, how soon should we expect 
biometric tools to supplant the traditional pin and password 
approach to device security?
    Dr. Clancy. So biometrics have offered a tremendous 
opportunity to fundamentally change how we authenticate people. 
I think there are still challenges. The joke in the biometrics 
community is that if I am using a fingerprint as my password I 
can only change my password nine times before I run out of 
fingers.
    So there are some challenges there. If your fingerprint 
data is compromised because it is stored in a database then 
your credential is sort of irrevocably lost and you can't 
change it like you can change a password.
    Mr. Johnson. So in that regard then, in that vein do you 
think biometric tools are going to make us more secure or are 
we going to happen upon the same kinds of problems that we have 
now if we file them away?
    Dr. Clancy. I believe that biometrics will be a critical 
part of multifactor authentication. If combined with a password 
and a mobile device, right, you can fuse these things together 
in order to significantly improve the security of a particular 
authentication to some online service.
    Mr. Johnson. All right. Secondary question, do you think it 
is right to think of every connected device as a potential 
vulnerability and, if so, what freedom or flexibility should 
network operators have to promote security when device owners 
fail to do so? And I guess we are sort of getting into the 
Internet of Things, you know.
    Dr. Clancy. Certainly. So the internet service providers 
have an increasingly challenging time. Because of the rise of 
technologies like end-to-end encryption, it is very difficult 
for internet service providers to tell the difference between a 
botnet command and control packet or a standard IoT web service 
traffic just because they don't have the visibility that they 
would otherwise have.
    So I think that that creates problems for them that makes 
it a challenge for the entire ecosystem, where you need the IoT 
service providers and the device manufacturers and all of them 
to come together to come up with a common solution for securing 
IoT.
    Mr. Johnson. OK. Ms. Todt, I apologize. I had a question 
for you but I have run out of time. Madam Chair, I yield back.
    Mrs. Blackburn. Well, we will also let you submit that 
question in writing. OK, Ms. Clarke, you are recognized for 5 
minutes.
    Ms. Clarke. Well, thank you, Madam Chair. The FCC just 
announced the newest members of the Communications Security, 
Reliability and Interoperability Council, a council established 
to make recommendations about the security, reliability, and 
resiliency of our communications systems. But as I have 
reviewed the names of the new members, I am disappointed to see 
a lack of cybersecurity expertise on the council.
    As the author of the Cybersecurity Responsibility Act, my 
bill makes it clear that the FCC has a role in ensuring our 
commercial sector has protections in place to secure our 
communication networks from malicious cyber attacks. So Ms. 
Todt, what role do you believe the Federal Government, in 
particular the FCC, has in protecting our Nation's 
communication networks?
    Ms. Todt. Well, I think again we can look to the executive 
order that was released by President Trump in May which 
specifically calls out the FCC as having a role in protecting 
the communications infrastructure and working with the 
secretary of commerce and the secretary of the Department of 
Homeland Security to initially look at that botnet mitigation, 
but then also looking at clean pipes and where that goes. And 
so clearly, I think the Government, the executive office as 
well as industry, believes that there is a role that it needs 
to play.
    Ms. Clarke. So then it would be prudent to have some 
cybersecurity expertise on this council, wouldn't it?
    Ms. Todt. That would appear to be the case, absolutely. I 
don't know who those individuals are, so I don't know if they 
have them in any----
    Ms. Clarke. Just generally speaking.
    Ms. Todt. But I would say, I mean, this is the issue, the 
broader issue, is that we have to be bringing cybersecurity 
expertise into all of these areas and that we have to be 
looking for that because that knowledge and that expertise has 
to be informing our policies, because they don't even have to 
be cybersecurity policies but they have an impact.
    Ms. Clarke. Absolutely, thank you.
    Dr. Clancy, as part of Congress' resolution of disapproval 
that overturned the FCC's privacy protections, Congress also 
stripped away consumers' data security protections. As I noted 
before, my bill, the Cybersecurity Responsibility Act, would 
ask the FCC to take some action, any action to protect our 
networks. Did Congress' rollback of these data security rules 
do anything to make America's personal information more secure?
    Dr. Clancy. So I think the rollback of the cybersecurity 
provisions in the FCC rulemaking from 2018 was, actually 
happened before Congress acted, right. The FCC removed those 
provisions and stayed those portions of the regulation, and 
then ultimately Congress rescinded the entire order which was 
focused more on the privacy aspects of that rulemaking.
    Of course the state of rationale was that it was 
inconsistent with the Federal Trade Commission's view of 
privacy and opt-in versus opt-out when it comes to consumer 
privacy. I don't know that I am in a position to declare 
whether opt-in or opt-out is a more appropriate way to protect 
consumer privacy, but I think it represents some of the 
regulatory challenges we have in asserting that one particular 
regulator has authority over a very complex ecosystem.
    Ms. Clarke. Or the question was more about security. And 
just looking at the ecosystem, if you sort of strip those or 
rollback those security rules, we are trying to figure out 
whether people's personal information it becomes, did we open 
up vulnerabilities? Let's put it that way.
    Dr. Clancy. So based on my experience working with the 
cellular industry and some of the major internet service 
providers, the big companies are already doing those best 
practices. The large ISPs, the large wireless carriers are 
already doing that. Where the gap is is the smaller and more 
rural internet service providers and the more niche wireless 
carriers who don't have as much infrastructure or resources 
themselves to deploy those best practices.
    Ms. Clarke. Yes. So when there is a vulnerability even in 
the smallest of these providers, doesn't that open up 
opportunities to get at grander----
    Dr. Clancy. Certainly, it does given the interconnectedness 
of the different telecom providers. I think what we are seeing 
in industry is strong collaboration though, with the big guys 
looking out for the small guys and doing what they can to help 
quickly remediate through information sharing that was really 
accelerated by the past----
    Ms. Clarke. Anyone else have any thoughts on that?
    Ms. Todt. I think the supply chain is a huge issue and even 
if you are sharing those practices we have to be looking at 
baseline level of standards. And I think that you are, oh, it 
is always going to be the weakest link and we have to do a 
better job within our sectors of actually informing and helping 
to share those best practices and lessons learned.
    One of the things that we have learned is that small 
businesses across sector have a lot more in common with each 
other than the small businesses and the large businesses within 
their sector and there is a lot of evidence right now around 
that. And so being able to look at this more thoughtfully and I 
think it goes again to this issue of collaboration and pre-
event planning would be the actions that we need to be taking.
    Ms. Clarke. Very well. Madam Chair, I yield back. Thank 
you.
    Mrs. Blackburn. And Mr. Bilirakis, you are recognized for 5 
minutes.
    Mr. Bilirakis. Thank you, Madam Chair. I appreciate it so 
much. And I appreciate your testimony today.
    As more IoT devices enter the market industry has seen a 
rise in tech support scams, unfortunately. Symantec's 2016 
Threat Report found a 200 percent rise in tech support scams in 
a 2-year period. With these types of threats the best defense 
is with the end user. Mr. Wright, how can an end user 
distinguish between a legitimate help desk and a tech support 
scam and can you describe how Symantec has responded to the 
increased threat?
    Mr. Wright. Yes. So these types of social engineering 
attacks as you just mentioned the tech support are particularly 
vexing. They depend on the consumer to somehow be able to 
intuit or to understand whether or not they are being, whether 
they are being scammed. There is not a lot of sort of 
technology that can fix that. A lot of it comes back to raising 
awareness of the user of what those threats could be, those 
users being more careful and perhaps having a more keen eye on 
to pick up signs. But it is a very, very difficult problem when 
it comes down to the user themselves.
    Mr. Bilirakis. Yes, thank you. For years people have been 
told to check for the https identifier in their browser before 
accessing personal websites such as for banking or health care. 
Mr. Wright again, your 2016 Threat Report states that relying 
on the https marking provides a false sense of security. Can 
you expand upon that?
    Mr. Wright. I am sorry?
    Mr. Bilirakis. Your findings. No, let me say it again. Your 
2016 Threat Report states that relying on the https marking 
provides a false sense of security. Can you expand on that 
finding?
    Mr. Wright. I know that https is more protected, but I am 
sorry I cannot sort of expand on the Internet Security Threat 
Report piece there. I am not prepared for that. Anybody on the 
panel have----
    Mr. Bilirakis. OK. Can maybe anyone else on the panel? Yes, 
please.
    Dr. Clancy. So https implies that the session is 
authenticated and encrypted, but the concern is to whom you are 
authenticated. There are many scams that can change a letter in 
the name of the domain name such that you wouldn't notice the 
difference but could still present a secure credential to you 
as a user.
    So I think https is a first step, and if you don't have 
that then you definitely need to be concerned. You need to look 
at the spelling of the domain name to make sure that it is 
spelled accurately and there aren't strange characters in 
there, that those are the sorts of things that undermine the 
security of simply looking for the https.
    Mr. Bilirakis. Any other suggestions?
    OK, thank you very much. Let's see, I still have a little 
time. Mr. Wright, according to Symantec 2016 Threat Report, the 
Apple iOS system faced its first widespread threat with the 
XcodeGhost attack. This malware has infected over 4,000 apps 
which leaves unsuspecting devices vulnerable. In response to 
cyber threats success largely depends on speed of response. How 
has industry responded to threats via apps since it first took 
hold in 2015 and have efforts met the success?
    Mr. Wright. Yes, good question. So apps certainly represent 
a potential threat vector especially for mobile devices. I 
would say that Apple has done a pretty good job making sure 
that malicious apps are not included in their app store. 
Android is doing a better job at trying to ensure that their 
apps aren't malicious. So those two providers I think have come 
a long way. Apple has always been pretty good, but the other 
provider has come a long way.
    In addition, there is some security solutions to this. Not 
plugging Symantec, but we do produce technology that can scan 
for apps and look for possible malicious apps or grayware apps 
which sometimes can leak information. So there is a technology 
solution, and then also the providers are doing a lot of work 
in that area as well.
    Mr. Bilirakis. Anyone else want to add something? I know I 
only have 15 seconds. OK, very good. Thank you, Madam Chair. It 
is a very informative hearing. Thanks for calling the hearing. 
Thank you.
    Mrs. Blackburn. Thank you. Ms. Eshoo, 5 minutes.
    Ms. Eshoo. I thank the chairwoman and I thank all the 
witnesses. I think you have given very important testimony. 
First of all, to Mr. Wright, I am very proud to represent 
Symantec.
    Mr. Wright. Thank you.
    Ms. Eshoo. I have had a long, long, long-term relationship 
going back to the days of John and how he really helped build a 
new Symantec and you keep going and you are a real asset to the 
country.
    And to Mr. Yoran, you get the prize for the best dressed 
before this subcommittee every time you come. One of the 
members said, do you think he lost his suitcase? I said, no, he 
hasn't lost his suitcase. That is his tuxedo for this 
committee.
    There has been a lot of discussion about a lot of things 
here. The title of the hearing is Cybersecurity Risks to 
Wireless Networks, but this is an entire ecosystem. And I think 
we have made real progress in many areas and I think that 
obviously we are lacking in others. I want to thank Symantec 
for working with me on the legislation that I mentioned in my 
brief opening statement.
    But I want to go to something else first and then a 
question to each one of you. Last year the FCC put into place 
data security rules that apply to wireless carriers as part of 
its privacy proceeding. And Dr. Clancy, you just gave some kind 
of, I don't know really what it was, but I am going to find out 
more, press you for more.
    These rules asked ISPs, really, something very simple and 
that is to take, quote, reasonable measures, reasonable 
measures to protect consumer data. Now there was the 
monetization of information and the monetization of attacks 
that has been brought up by more than one panel member this 
morning. Do any of you think that the FCC went too far in 
asking ISPs to act reasonably to protect consumer data?
    There is a little bit of, if I might suggest this, 
politically cross-dressing that is going on here, because the 
Congress ripped away all privacy protections on the internet 
and that is on the computer that I have in my purse. That is 
for everyone in the country. So we are talking about, I think 
cybersecurity is all about privacy. It brings about privacy.
    So maybe a yes or no to each one of you, and if you don't 
know, then say that. Do you think the FCC went too far in 
asking for reasonable measures to protect consumer data? I am 
going to start with----
    Mr. Wright. So I will have to say I don't know too much 
about that----
    Ms. Eshoo. OK.
    Mr. Wright [continuing]. Specifically, but I will say, you 
know, it appears to be reasonable to protect user data.
    Mr. Yoran. I can't comment specifically to FCC's issue, but 
reasonable does sound reasonable.
    Dr. Clancy. Indeed. I mean it was a complicated set of 
circumstances, but----
    Ms. Eshoo. What is so complicated about it? What is 
complicated about it? I have it right here what they put 
forward. They are really simple things.
    Dr. Clancy. Reasonable is reasonable.
    Ms. Todt. I will ditto my colleagues. I mean, reasonable 
protections are reasonable.
    Ms. Eshoo. I think what I would like to do in writing, 
because I don't have time for it, is to ask each one of you so 
you can be prepared for it, what is your top line 
recommendation to the subcommittee relative to cybersecurity in 
our country? Just one thing, top line, from each one of you. 
You are all experts and I will look forward to sending that to 
you and getting your responses. Thank you for what you are 
doing for the American people. I appreciate it.
    Mrs. Blackburn. All right. Let's see, Mr. Flores, you are 
recognized.
    Mr. Flores. Thank you, Madam Chair, and I want to thank the 
panel for being here today.
    Ms. Todt, unlike other types of crimes, when we talk about 
cybercrime we always seem to focus on the need to protect 
against the attacks rather than prosecute the bad actors. And 
can you tell us what the Federal Government is doing to 
actively work on cybercrime attribution and also what are the 
limitations of trying to track down our cyber adversaries?
    Ms. Todt. So right now I believe the executive order has 
laid out--I am not as familiar with the criminal angle. I know 
we worked with the Department of Justice with the Commission on 
being able to look at malicious actors and where the crime 
plays a role, and I think one of the key things that a lot of 
the commissioners talked about is you have to have penalties 
for those bad actors. But I apologize, I can't talk 
extensively, but I am happy to get back to you with an answer 
in writing.
    Mr. Flores. OK, yes. If you could do that, that would be 
great.
    Dr. Clancy, in your testimony today and from testimony 
across the panel it sounds like we have got a skills gap when 
it comes to protecting ourselves from cybercrime. And of course 
in order to fill the pipeline we are going to have to be able 
to get our educational institutions to produce the people 
resources to be able to do with this.
    I represent three world-class universities back in my 
district, Texas A&M University, Baylor University, and the 
University of Texas. What could the Federal Government be doing 
to help ensure that pipeline is filled with quality skilled 
individuals?
    Dr. Clancy. I think that most of the efforts to date have 
focused on the tail end of the pipeline.
    Mr. Flores. Right.
    Dr. Clancy. Getting students out of college and into jobs, 
I think the pipeline starts much earlier than that.
    Mr. Flores. Exactly.
    Dr. Clancy. When students are coming into college they need 
to want to major in cybersecurity and more broadly in STEM 
fields, so I think additional initiatives that are focused on 
the K-12 outreach and engagement to bring cybersecurity down to 
the middle school level or even sooner, just basic digital 
hygiene at the elementary school level would be a great 
starting point and build up from there. If you want to build a 
pipeline you need to start at the beginning.
    Mr. Flores. OK. Now Mr. Yoran, you and I both have business 
backgrounds and I mean you hire a lot of these types of 
individuals. What would your key recommendations be?
    Mr. Yoran. I think it is important for employers to look 
for the intellectual curiosity around cyber. And as Dr. Clancy 
said earlier, you know, I think you have to start at an earlier 
age and part of it may be through cyber hygiene. I know I could 
talk to my kids about cyber hygiene and they still don't apply 
their patches, so I think we have to find things that are more 
interesting, more intriguing ways of creating excitement and 
creativity around cybersecurity education.
    Mr. Flores. OK, thank you.
    Dr. Clancy, you mentioned the need for the Federal 
Government to continue to act as a convener and to set 
priorities based on its unique knowledge of cyber threats, but 
for national security reasons the Government doesn't always 
share the full extent of its knowledge of those threats. How 
significant is this limitation and how can Congress be helpful 
in encouraging more transparent threat intelligence sharing?
    Dr. Clancy. So I think from a convening perspective, groups 
like the FCC CSRIC organization is a great way for the 
Government, for the Federal Communications Commission, to sort 
of set priorities and identify areas of concern and work 
collaboratively with industry to identify solutions. I think 
that that goes to a certain extent hand in hand with the 
challenges of cyber information sharing.
    You have the national security agencies who are generating 
detailed information on cyber threat, but that is due to the 
sources and methods involved. It is held at a classified level 
and can't be shared and that creates a barrier to sharing. The 
thought is that if we have sufficiently large cyber threat 
brokerage houses sort of emerging that there can be enough data 
that the Federal Government could anonymously share data that 
would obscure sources and methods with those brokerages and it 
wouldn't be attributable to specific sensitive aspects of how 
that data was arrived at.
    Now we are not there yet, but I think there is some hope 
that that may be a solution moving forward long term.
    Mr. Flores. OK, thank you. If any of you have any 
supplemental comments on any of these questions and you could 
submit those, that would be great. Thank you, and I yield back 
the balance of my time.
    Mrs. Blackburn. Mr. Rush, you are recognized for 5 minutes.
    Mr. Rush. I want to thank you, Madam Chair, and I want to 
commend you for holding this hearing.
    Dr. Clancy, Tom, you are concerned that the Internet of 
Things, the IoT, where everything from home appliance to 
industrial infrastructure devices connected to the internet is 
not secure enough to withstand a cyber attack. What is the 
biggest challenge you see in securing this complex mobile 
ecosystem?
    Dr. Clancy. Well, I think that just the breadth, as you 
stated, is part of the challenge. The threats to an internet-
connected home appliance are very different than the threats to 
an internet-connected nuclear reactor and the technologies 
involved are very different.
    So at one end of the spectrum in the consumer technology 
space we have the key challenge, I think, is supply chain and 
inexpensive goods, inexpensive IoT devices coming from overseas 
that were not designed with security as part of the fundamental 
component. I think at the other end of the spectrum you have 
industrial infrastructure, industrial control systems. There 
the challenge is more that the desire to gain efficiencies from 
aging infrastructure and be able to support more users with the 
same power grid and more peak demand requires us to use 
artificial intelligence to orchestrate much of our 
infrastructure which necessitates connecting that 
infrastructure to the cloud in order to do the needed big data 
processing on the data.
    So you end up drawing this sort of series of events that 
necessitates for business reasons connecting this industrial 
infrastructure to the cloud, which then fundamentally exposes 
it to risks it had never faced before. And that is a whole 
separate set of challenges that requires the key components of 
that industry to figure out how to work together to solve those 
challenges.
    Mr. Rush. Are you concerned that the Federal Government is 
inadequate and then presently is organized that we are, are we 
prepared to deal with this broad threat, a cybersecurity 
threat? I mean we have different centers of responsibility or 
authority and power located in many different places from 
Homeland Security to the FCC. Are we prepared in a streamlined 
way to respond to a cyber attack using these IoTs?
    Dr. Clancy. I think we are never going to be as prepared as 
we would like to be, but I think our level of preparedness is 
steadily increasing. I think the NIST Cybersecurity Framework 
that many have referenced throughout this hearing is a great 
example of a tool that we can use to develop a common 
understanding of how to respond to these threats and we need 
more things like that to help improve our ability to respond.
    Mr. Rush. I want to thank you. I want to move to Mr. 
Wright. Mr. Wright, how vulnerable is the U.S. power grid to a 
similar power grid attack that Ukraine suffered last year?
    Mr. Wright. Excuse me. Yes, you are referring to what we 
have called Sandworm threat. It attacked the Ukraine two 
different times over the last year shutting down power. 
Interestingly, they got back online relatively fast because 
they went back to manual movements.
    Here in the U.S. I think we are probably more advanced on 
our security of those power grids. More than that, I think that 
our people are trained to be able to get back online manually 
because of threats in storms and natural disasters that they 
have trained to be able to get back online and to be able to do 
that manually.
    That said, there is always going to be susceptibility, and 
with the latest Ellen Nakashima article that came out yesterday 
advising of a new more advanced threat, I am sure that our 
power grid operators and Government are looking at how to 
protect against those.
    Mr. Rush. I want to thank you, Madam Chair, and I yield 
back.
    Mrs. Blackburn. I thank the gentleman. Mrs. Brooks, you are 
recognized for 5 minutes.
    Mrs. Brooks. Thank you, Madam Chairman, and thank you to 
all of our panelists for sharing your background and your 
wisdom with us. It seems that part of the problem we face is 
that cyber attacks when we talk about cybersecurity it is 
moving far faster, it seems, than our cyber defenses and the 
bad guys only have to be right once while the good guys have to 
be right all of the time.
    I am a former U.S. attorney and but from '01 to '07 when we 
were really standing up cyber teams and I certainly know the 
FBI and obviously NSA and others have really beefed up their 
cybersecurity, but yet I am a bit troubled that--because I was 
just, you know, Googling big cyber cases and so forth and they 
seem to be happening more in other countries than they are 
happening in our country.
    And I am just curious how much cooperation is there with 
the private sector lending your advice to the Government sector 
in prosecuting and enforcing our cyber laws. And I am concerned 
that your expertise and the expertise of those in your 
industry, it is hard for Government to bring folks in. As you 
said, I believe, Mr. Yoran that often it goes the other way. 
They start in Government and then go out to the private sector.
    But yet if we aren't cooperating and I think at a very 
different level than we currently are, and I appreciate your 
work and what the commissions have done and recommendations and 
so forth, but I think we need to accelerate it in a much 
greater way of how we can prevent, not just prevent because you 
are all focused on preventing, but if we don't actually 
prosecute. And Mr. Wright, would you like to start us out?
    Mr. Wright. Sure.
    Mrs. Brooks. And I really need to hear what your thoughts 
are about the level of Government's willingness to bring your 
expertise to the table to help us, you know, stop these people 
by actually prosecuting.
    Mr. Wright. Yes, I think you are making an absolute, 
excellent point there. There is a focus on protection, whereas 
rarely do we speak about deterrents. One of the main deterrents 
is prosecuting. I would say that the FBI in particular has 
gotten much better. In fact, I would put them at very good at 
this point. They are recruiting the right people. They are 
going after the cybercriminals. And maybe if you don't read 
about it as much here in the United States it is because a lot 
of our adversaries, cybercrime adversaries, are sitting 
overseas; very tough to prosecute in those cases.
    But I will tell you one good story that happened right at 
the beginning of this year. Symantec partnered with the FBI and 
worked on a case we referred to as Bayrob. It went on for 9 
years. We had finally culminated in the arrest and extradition 
of three Romanian citizens that are currently sitting here in 
the U.S. awaiting trial.
    Those connections that private-sector companies are making 
with law enforcement are getting better every day. They are 
getting more and more trusted. I actually think that is a good 
news story for us now. But I think focusing on some sort of 
deterrents is really important because today cybercrime has all 
upside and no downside. There are no risks, very few risks 
involved in being in cybercrime.
    Mrs. Brooks. Thank you. Mr. Yoran, any comments you might 
have and should we be looking at a different model of how 
Government is working with the private sector to bring people 
to justice? Because 9 years and three defendants doesn't sound 
like enough to me, but I applaud it--but 9 years and three 
defendants.
    Mr. Yoran. And I am sure there is a lot of detail to that 
case and will point to many follow-on cases and other 
investigations. I think you bring up a very important point. 
There are many cooperative efforts between law enforcement and 
private industry.
    A few areas where private industry has really augmented 
what has been traditional Government function is in the area of 
attack attribution and threat intelligence of which Symantec, 
you know, is a very active participant. And that can aid and 
assist law enforcement and also help create deterrents whether 
it is through naming and shaming or other means.
    There also remains, I think, a reasonable gap between the 
interest of law enforcement and those trying to defend networks 
where there are instances where, you know, law enforcement 
officials would like to, for the purposes of prosecuting a 
crime, leave systems open and to continue to monitor how a 
crime is unfolding, whereas those trying to defend networks 
frequently care a little bit less about who is doing it and 
more about cleaning up their systems.
    Mrs. Brooks. My time is up, but if any of you would have 
any other comments you would like to make, I would certainly 
appreciate any written comments on it. Thank you. I yield back.
    Mrs. Blackburn. Thank you, gentlelady, and Mr. Costello for 
5 minutes.
    Mr. Costello. Thank you. Mr. Wright, from your experience 
working on both the Federal side and industry sides of 
cybersecurity, I want to ask you this question. And this comes 
from a conversation I had with somebody pretty high up the food 
chain on this issue. Mobile device hardware, how serious of a 
problem is it that DOD and the U.S. Government rely on foreign 
IT hardware as well as just the consumer products that we 
utilize in that space? Many of it is foreign manufactured or 
foreign designed and specifically I have heard that there are 
times when the capacity or capability of a particular device 
far exceeds, the potential for it far exceeds what the 
realization of that device is actually for. Does that make 
sense?
    Mr. Wright. So I think the capacity and capability----
    Mr. Costello. In other words you can have more with----
    Mr. Wright. Far exceeds, I am sorry? What----
    Mr. Costello. Far exceeds what a consumer is actually 
intending to utilize it for.
    Mr. Wright. Well, I think that certainly on this side, 
mobile phone consumers are sort of just hitting the beginning 
of what they eventually are going to do with mobile devices. As 
far as concern about where those mobile devices are being 
built, you know, I think that some of these supply chains are 
always going to be important and can open up some possible 
vulnerabilities.
    So we need to be able to have an understanding of where not 
only the device is put together but where those individual 
pieces are manufactured and pulled into the device, because 
they can certainly open yourself up to vulnerabilities.
    Mr. Costello. I want to pick up on the line of inquiry that 
Mrs. Brooks was pursuing and that is, it seems to me 
distinguishing between lawful legitimate activity and unlawful 
activity, someone engaged in a cybersecurity crime is often 
difficult to discern until it is too late. And whether it is 
the cloud, whether it is wireless access points, I was reading 
a little bit in the testimony about the mobile device 
management solutions.
    The question I have here is, is our criminal code, does it 
reflect the technological capacity of cybercrime as it stands 
today or are we sort of, is it antiquated? Does it need to 
evolve or does it need to be, does it need to reflect the way 
that criminal activity occurs, because often times a crime 
could be happening and yet we are not able to call it a crime 
because the actual malware or the actual money hasn't been 
stolen or the last piece of the crime which would actually make 
it criminal hasn't yet occurred. Does that make sense?
    And so my question to any of you is, be it with wireless 
access points, be it with just how often we use the cloud, do 
you see certain types of cybercriminal activity where our 
criminal code does not properly reflect what is happening day 
in and day out in such a manner that we are able to go and 
prevent crimes from happening because our criminal code does 
not have the elements to be able to have us sufficiently charge 
them with a crime early enough before it is too late, anyone?
    Ms. Todt. I think the industry, obviously industry has a 
thoughtful perspective on this and I know Symantec has done 
some tremendous work in this space. There is an entity called 
the National Cyber-Forensics & Training Alliance center which 
works with the FBI with consumers with law enforcement to 
understand where the criminal code is aligned with cybercrime.
    And I know that they are working on revising it where 
necessary, because I think, you know, to the point that was 
made, rightly, it is this deterrents effort. But updating just 
as we need to do across all elements of cybersecurity we tend 
to have a physical approach to cybercrime sometimes and 
understanding that the NCFTA, I believe, is looking at that 
specifically.
    Mr. Costello. Yes.
    Mr. Wright. I would just say, yes, I agree there are some 
sort of unique things about pursuing and prosecuting a cyber 
case, chain of custody of evidence is one of them.
    Mr. Costello. Right.
    Mr. Wright. I can't think of sort of specific incidences 
where we are crosswise with the laws, but that is certainly 
something I think they could look into. There is one area, the 
way that we share information, prosecutorial information with 
other countries, our MLAT process, our Mutual Legal Assistance 
Treaties, I believe are outdated. They need to be, they 
probably need to be revised so that we can share information, 
we could have information shared with us so that we can 
prosecute better.
    Mr. Costello. The concern I have--and my time is over--is, 
just given the lack or small number of instances where we are 
able to prosecute on this, tells me that there is just too 
much, there is no risk. I think that was the term you used. 
There is no risk to not engage in cybersecurity crimes when you 
are these actors. And that is terribly concerning, and it just 
raises the question to me on the criminal side of it: Is there 
more that we can do to enable the prosecution of this more 
easily? I yield back.
    Mrs. Blackburn. The gentleman yields back, and there are no 
further Members seeking time for questions. Pursuant to 
committee rules, I remind Members that they have 10 business 
days to submit additional questions.
    And I think you all are probably aware you have got written 
questions coming to you. We would ask that you respond to those 
written questions within 10 business days, and get that back to 
us. It is a hearing where there is a good bit of interest, and 
we look forward to moving forward on this issue this year.
    So, seeing no further business to come to the subcommittee 
today, the committee is adjourned.
    [Whereupon, at 12:04 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
